<html>
<title> - ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2015 Wednesday, April 2, 2014.</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                                                     


                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
                                
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                   MICHAEL K. SIMPSON, Idaho, Chairman
 
 RODNEY P. FRELINGHUYSEN, New Jersey  MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi           PETER J. VISCLOSKY, Indiana
 KEN CALVERT, California              ED PASTOR, Arizona
 CHARLES J. FLEISCHMANN, Tennessee    CHAKA FATTAH, Pennsylvania
 TOM GRAVES, Georgia                  
 JEFF FORTENBERRY, Nebraska         
 
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Rob Blair, Angie Giancarlo, Loraine Heckenberg,
                      Ben Hammond, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 7

                          DEPARTMENT OF ENERGY

                           Secretary of Energy

                                ________

         Printed for the use of the Committee on Appropriations
         
         
         
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      

                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                   MICHAEL K. SIMPSON, Idaho, Chairman
 RODNEY P. FRELINGHUYSEN, New Jersey  MARCY KAPTUR, Ohio
 ALAN NUNNELEE, Mississippi           PETER J. VISCLOSKY, Indiana
 KEN CALVERT, California              ED PASTOR, Arizona
 CHARLES J. FLEISCHMANN, Tennessee    CHAKA FATTAH, Pennsylvania
 TOM GRAVES, Georgia                
 JEFF FORTENBERRY, Nebraska         
                         
 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Rob Blair, Angie Giancarlo, Loraine Heckenberg,
                      Ben Hammond, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 7

                          DEPARTMENT OF ENERGY

                           Secretary of Energy

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                                
                     U.S. GOVERNMENT PRINTING OFFICE
                     
 91-277                     WASHINGTON : 2014
 
 
 
 
 
 
 
 

                         COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia              NITA M. LOWEY, New York
 JACK KINGSTON, Georgia               MARCY KAPTUR, Ohio
 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                     JOSE E. SERRANO, New York
 ROBERT B. ADERHOLT, Alabama          ROSA L. DeLAURO, Connecticut
 KAY GRANGER, Texas                   JAMES P. MORAN, Virginia
 MICHAEL K. SIMPSON, Idaho            ED PASTOR, Arizona
 JOHN ABNEY CULBERSON, Texas          DAVID E. PRICE, North Carolina
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 JOHN R. CARTER, Texas                SAM FARR, California
 KEN CALVERT, California              CHAKA FATTAH, Pennsylvania
 TOM COLE, Oklahoma                   SANFORD D. BISHOP, Jr., Georgia
 MARIO DIAZ-BALART, Florida           BARBARA LEE, California        
 CHARLES W. DENT, Pennsylvania        ADAM B. SCHIFF, California    
 TOM GRAVES, Georgia                  MICHAEL M. HONDA, California      
 KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota
 STEVE WOMACK, Arkansas               TIM RYAN, Ohio
 ALAN NUNNELEE, Mississippi           DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska           HENRY CUELLAR, Texas
 THOMAS J. ROONEY, Florida            CHELLIE PINGREE, Maine          
 CHARLES J. FLEISCHMANN, Tennessee    MIKE QUIGLEY, Illinois
 JAIME HERRERA BEUTLER, Washington    WILLIAM L. OWENS, New York
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California         
 ANDY HARRIS, Maryland
 MARTHA ROBY, Alabama
 MARK E. AMODEI, Nevada
 CHRIS STEWART, Utah                
          
               William E. Smith, Clerk and Staff Director

                                  (ii)

 
 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2015
______________________________________________________________________
 
                                          Wednesday, April 2, 2014.

                          SECRETARY OF ENERGY

                                WITNESS

HON. ERNEST MONIZ, SECRETARY, DEPARTMENT OF ENERGY
    Mr. Simpson. The hearing will come to order.
    Secretary Moniz, it is good to see you again. Welcome to 
your first hearing before this subcommittee. You have taken 
over the department at a very challenging time. Your 
institution is critical for the security of this Nation and it 
holds great promise for improving the livelihood and prosperity 
of our economy. It helps answer some of the most basic 
questions regarding our universe, while it is in charge of 
cleaning up the radioactive legacy of keeping our country safe 
during the Cold War and beyond. In other words, there is no 
doubting the importance of the Department of Energy, yet there 
is great doubt that the department is up to the task without 
significant improvements.
    One of the subcommittee's most pressing concerns is the 
department's inability to plan and execute major infrastructure 
projects. At this point, nearly every major construction 
project underway over the last 5 years, the MOX plant in South 
Carolina, the Waste Treatment Plant in Washington state, the 
Uranium Processing Facility at Y-12, and I could go on, has 
spectacularly broken its cost projections. And when I say 
spectacularly, I mean more than doubling, often going billions 
higher than the plans Congress had agreed to.
    Mr. Secretary, another area of concern is the ability of 
the National Nuclear Security Administration to meet the needs 
of the Department of Defense. Let me rephrase that. To meet the 
needs of the Department of Defense in a way clearly 
communicated to and approved by Congress. It does us no good to 
have the Department of Energy agree to a work plan with the 
Department of Defense which we cannot afford. Your department's 
credibility has been sorely damaged by proposing cost plans 
which are rapidly exceeded. This is a three-way relationship 
that is critical to the security of our country, and it needs 
your personal attention.
    I mention these issues because the current state of affairs 
is not sustainable and this country needs a strong Department 
of Energy. This subcommittee has long held your nuclear weapons 
mission to be your ultimate responsibility, but the actions of 
Russia in the Ukraine remind us that energy supply can also be 
an issue of national security. Your department must take that 
into account as it develops its research and development plans, 
yet it seems to me as if your fiscal year 2015 budget request 
misses the mark in that respect.
    The two accounts which can help secure the country's energy 
security today and in the coming years, nuclear energy and 
fossil energy, are cut while renewable energy is increased. I 
am not an enemy of renewable energy. Heck, the city of Boise in 
my district operates the largest direct use geothermal system 
in the country, but coal and nuclear plants are being shut down 
across the country. Some of this is because of market forces 
like the price of natural gas, but some of these closures are 
also due to government policy.
    There is a lot of disagreement up here about the proper 
role of government, but I think we all agree that the Federal 
Government's role is to inject strategic thinking into our 
economy, while markets rarely do that. I can't think of a 
clearer example of this than our energy supply. If we are going 
to ensure that our electrical system remains reliable and our 
country prosperous, then your department needs to be doing more 
to address our current fleet of power plants, not focus funding 
far down the road. Your department should be helping to build a 
power sector prepared to quickly adapt to a time when natural 
gas prices are no longer cheap and your department should be 
proposing budgets to support those objectives.
    Mr. Secretary, we have had several meetings, and I have 
been encouraged by our discussions. You have been on the job 
for, what, 11 months now? Something like that?
    Secretary Moniz. Not quite.
    Mr. Simpson. Let me give you fair warning for my first 
question so that you can prepare. I am going to ask you what 
your vision is for the department, and all of the problems that 
I have discussed today will have to be fixed as part of 
achieving any vision, but only a leader with a clear view of 
what he wants this agency to be will be able to rebuild the 
department into the strong institution it must be for the 
security and prosperity of this country.
    As I have told you before, one of my challenges that I have 
had serving on this committee for a number of years is while 
the Department of Energy does a lot of neat stuff, I have never 
had a clear vision of where we want to go with this department 
and why we do some of that neat stuff and how it fits into the 
overall mission and vision of the Department of Energy.
    So as I told you, I think, the last time we had lunch that 
I would give you all the time you need so that you could paint 
me a picture of your vision of the Department of Energy over 
the next 5 years, 10 years, 20 years and where we plan to end 
up.
    Please ensure that the hearing record, questions for the 
record and any supporting information requested by the 
subcommittee are delivered in final form to us no later than 4 
weeks from the time you receive them.
    Members who have additional questions for the record will 
have until close of business tomorrow to provide them to the 
subcommittee office.
    With that, I will turn to my ranking member, Ms. Kaptur, 
for her opening statement.
    Ms. Kaptur. Thank you, Mr. Chairman.
    And, in the interests of time and competing meetings, I 
would like to defer, if I could, and turn the gavel--turn the 
opportunity over to our very esteemed ranking member.
    Mr. Simpson. I know you'd like to turn the gavel over.
    Ms. Kaptur. Well, we are working on that.
    To Congresswoman Nita Lowey of New York.
    Mrs. Lowey. Thank you, Ranking Member Kaptur, and thank 
you, Chairman Simpson.
    And welcome, Secretary Moniz, to your first budget hearing 
before the House Appropriations Committee. And let me apologize 
in advance, Chairman Rogers is moving things along very 
quickly, and there are about three or four hearings every 
morning, so I apologize.
    On Monday, the United Nations Intergovernmental Panel on 
Climate Change published a new report summarizing the most 
recent climate science. The report issued ominous warnings 
about the coming consequences of global warming, which threaten 
to endanger crop yields, shrink water supplies, flood low lying 
coastal communities, and even destabilize global security by 
indirectly increasing the risk of violent conflicts.
    As someone whose district was directly impacted by 
Hurricane Sandy, and who has seen the destruction and cost of 
global warming up close, there is no doubt in my mind that the 
United States has a responsibility to support investments to 
mitigate the domestic impacts of climate change and participate 
in international efforts to curb emissions to prevent 
irreversible damage to the planet.
    Mr. Secretary, I strongly support prioritization of 
investments that conform to the President's climate action plan 
and I applaud you for the $450 million proposed increase for 
energy efficiency and renewable energy programs. With the 
damaging effects of climate change clearly visible throughout 
the country, additional Federal investments to renewable energy 
research are needed to speed the private sector's development 
of renewable technologies.
    I also share the department's continued commitment to 
maintaining our country's robust scientific workforce. 
Equipping our citizenry with the knowledge to capitalize on 
tomorrow's clean energy economy is one of the best ways to 
mitigate the impact of global warming.
    With the return on investment of 20 to 67 percent from 
publicly-funded research and development, it is imperative that 
we continue to invest in innovation at our Nation's colleges, 
universities and national labs.
    Mr. Secretary, I will read your testimony carefully. I 
apologize that I have to move to another hearing, but I want to 
do everything I can to ensure that you have adequate resources 
when the committee writes its fiscal year 2015 bill.
    And thank you again, Mr. Chairman and Madam Ranking Member, 
for your indulgence. Thank you.
    Mr. Simpson. Thank you. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Let me add my words of welcome to Secretary and Dr. Moniz. 
We are just really very grateful for your appearance this 
morning, and really, Mr. Secretary, the early reviews of your 
tenure as Secretary have been very, very favorable, and I know 
how hard you are working. I believe that the hardest challenges 
that we all face on the energy front still lie ahead of us, and 
you have a very, very important job for our country.
    I have long stated that our reliance on foreign energy, is 
a grave economic and national security concern for our country. 
Just over the last decade, we have spent over $2.3 trillion, 
just in the last 10 years, on importing foreign oil. If we go 
back to the 1970s, which I remember well, that would be even 
greater. We have made rich some of the worst global players at 
the expense of our own citizens and we have seen jobs stemmed 
in our own country because of the lack of energy independence 
here, we have seen economic growth stifled and, frankly, our 
national security compromised.
    The recent events in the Ukraine, as the chairman has 
stated, have highlighted in stark relief the importance of 
reliable energy to our world's ability to defend the borders of 
sovereign nations. The dependence of Ukraine and much of Europe 
on Russian energy imports have complicated the international 
response to Russia's annexation and illegal taking of Crimea. 
This is not just a challenge to Europe, energy is one of the 
defining challenges of our time and will only become a greater 
challenge, not a lesser one.
    Since the late 1970s and the formation of your department, 
progress actually seems glacial. Our own energy crisis is not 
just about insecure oil supplies from the middle east, but 
about the cost it inflicts on hardworking Americans, the 
national security threat it poses to us, and the havoc it 
wreaks on our environment.
    I appreciate your support of an all-of-the-above energy 
strategy, which I also support, but I would appreciate even 
more, the Department of Energy setting clearer targets to begin 
to close these trade gaps and to focus the American people on a 
long-term strategy that is necessary now, not tomorrow or next 
week.
    While we are developing our approach to energy and its 
future and our country, we are all in agreement that we must 
focus on commercialization efforts with a strong bias toward 
improving American production, American manufacturing, and if 
we look at our trade deficit, it tells us something really 
important: the two top categories of trade deficit are in the 
energy import arena as well as automotive. You link those two, 
you solve those, you solve the problem that we face on the 
energy front. I cannot emphasize this point enough, and as I 
look back after the last 40 years, I say to myself, have we 
really been serious since the formation of your department?
    Our government can drive the policies and incentives for a 
more robust energy mix and smarter energy consumption, however, 
as I said before, no matter the policy set forth, if strong 
leadership and fundamental management reform are not 
forthcoming at the Department of Energy, it will significantly 
inhibit the chance of a successful energy policy as well as the 
department's credibility, and, frankly, the department has had 
a rather foggy image in the minds of the American people in 
this regard.
    During the questioning period, Mr. Chairman, I will get 
into contract and project management issues. I have not been a 
member of this subcommittee as long as our chairman has, but 
the energy issue is not new to me, and frankly, I have never 
seen the cost overruns and schedule slips that I now have 
learned have been endemic at the Department of Energy.
    So we look forward to your testimony.
    Thank you, Mr. Chairman, for the time, and I look forward 
to our hearing today.
    Mr. Simpson. Thank you.
    Secretary Moniz, the time is yours.
    Secretary Moniz. Okay. Thank you, Chairman Simpson, Ranking 
Member Kaptur, and members of the committee.
    I appreciate the opportunity to appear before you today, as 
was said, for my first budget presentation before the Congress.
    The President has made clear the Department of Energy has 
significant responsibilities, as you have acknowledged in your 
opening statements, both for advancing the Nation's security, 
and I would say especially by maintaining a reliable nuclear 
deterrent and by helping to keep nuclear materials out of the 
hands of terrorists, and the Nation's prosperity, and 
especially by advancing his all-of-the-above approach to clean 
energy, and by helping to provide the foundation for the future 
manufacturing capabilities that we need.
    So as you know, the top line discretionary budget request 
for fiscal year 2015, is $27.9 billion, a 2.6 percent increase 
above fiscal year 2014. I believe that increase in these 
constrained budget times reflects the high priority assigned to 
these missions.
    So I will just say very briefly a few things about the 
budget request so that we can move on to our discussion. I will 
organize it around each of the three programmatic areas which 
have been set up through our reorganization at the 
undersecretary level, focusing on three key areas: science and 
energy; nuclear security; and management and performance, and I 
believe all three of these have featured in your opening 
statements.
    On science and energy, first, the all-of-the-above energy 
strategy, is driving economic growth and creating jobs while 
lowering carbon emissions. We are producing, as you well know, 
more natural gas in the United States than ever before, we are 
increasing oil production and, in fact, for the first time in 2 
decades, we are producing more oil than we import, at the same 
time, in that same period, having the lowest CO<INF>2</INF> 
emissions that we have had.
    We have seen remarkable progress in clean and renewable 
energy. The last 5 years more than doubled electricity from 
wind and solar, while still making the investments in coal and 
nuclear power that I believe are needed for those sources to be 
competitive in a clean energy economy, and efficiency, as was 
noted, is a major focus of our fiscal year 2015 budget request. 
There is a $9.8 billion request in this area, an increase of 5 
percent for science and energy programs to advance these areas.
    Just a few examples of EERE, Energy Efficiency and 
Renewable Energy. Here we have a substantial proposed increase 
to support investments in areas of sustainable transportation, 
renewables, efficiency and advanced manufacturing. Those are 
highlighted in the budget request. The Office of Electricity 
Delivery and Energy Reliability program, more precisely, is our 
lead office in driving a focus on grid modernization and 
resiliency, again, themes that you have referred to in the 
opening statements.
    There is a substantial increase proposed to support grid 
modernization and resiliency efforts, including smart grids and 
micro grids, energy storage, and a strengthened energy response 
capability. Ranking Member Lowey mentioned Hurricane Sandy, and 
we know the importance of that response. These programs on grid 
modernization will be carried out in collaboration with EERE, 
Energy Policy and Systems Analysis and other offices at the 
department.
    ARPA-E, the Advanced Research Projects Agency-Energy, this 
program, we believe, is being extremely effective. Actually 
there are 24 startup companies already out of the ARPA-E 
funding. We request a 16 percent funding increase for ARPA-E to 
support four or five new focussed programs, but also to have 
our third open funding competition to bring new ideas across 
all of the energy space.
    The budget request also includes funding for the Office of 
Energy Policy and Systems Analysis. I would like to highlight 
this was part of our reorganization to provide a focus for, 
particularly, analysis that underpins energy policy 
development, and they play a central role in the 
administration-wide Quadrennial Energy Review.
    Turning to the Science programs, as you know, DOE Office of 
Science provides critical, scientific and technical 
underpinnings for all departmental missions and for the entire 
country's physical science and engineering research capacity. 
We request $5.1 billion for the Office of Science.
    As one example, Science, in conjunction with NNSA, again, a 
theme I like to emphasize, we are coordinating across programs, 
will focus on developing Exascale computing platforms, and we 
believe the road to Exascale will have many, many novel 
technology developments, that will continue our traditional and 
critical American leadership in high performance computing for 
both economic competitiveness and national security.
    The budget also supports the Office of Science's unique 
role in a whole range of cutting-edge user facilities, a very, 
very important service that we support for the American 
research community, and that ranges from a set of highly 
efficient, highly effective light sources, the Spallation 
Neutron Source; a new project, the Facility for Rare Isotope 
Beams; and many other projects.
    As I already noted, grid modernization and Exascale are two 
examples of our focus on cross-cutting initiatives, 
coordinating the efforts in multiple offices on important 
problems. Another example is subsurface science and 
engineering, where we will bring together efforts in about four 
offices, because in the past we haven't really put together the 
way subsurface science and engineering cuts across multiple 
energy programs, from unconventional resources to geothermal, 
to waste management and other activities.
    Nuclear security. Again, a few words. Just over a week ago, 
I was in the Hague with the President, where he reiterated his 
commitment to nuclear non-proliferation and security, calling 
on the global community to decrease the number of nuclear 
weapons, control and eliminate nuclear weapon useable material, 
and build a sustainable and secure nuclear energy industry, all 
central to our mission.
    I might add, we had a specific announcement, which was a 
major announcement with Japan, in terms of bringing hundreds of 
kilograms of highly enriched uranium and plutonium for safe 
handling in the United States. The budget request provides 
$11.9 billion for our nuclear security missions, a 4 percent 
increase.
    Budget caps, as you know, and I might say, Mr. 
Frelinghuysen knows well, have put serious constraints on our 
national security enterprise broadly. We had a robust 
interagency planning process relooking at our stockpile 
strategy.
    Mr. Chairman, you mentioned the constraints in budgets, we 
put forward, we think, a strong request there, with the 
commitment to maintain the so-called, three-plus-two deterrence 
strategy that was agreed to, but has been challenged since the 
Budget Control Act, and we believe we do have now, an 
affordable strategy to complete the three-plus-two approach to 
a safe and reliable stockpile without testing, while reducing 
the numbers and types of weapons in the next two decades.
    Defense nuclear non-proliferation, as I already alluded to, 
is another obviously very high nuclear security priority, and 
we do support a very robust program, but clearly our budget, 
because of the constraints, we came in with a substantial 
reduction in funding for this program, more than half of that 
reduction due to reduced funding for the mixed oxide fuel 
fabrication facility, and this was driven by something, again, 
you have both referred to. We simply have to get hold of the 
costs of these majors projects, and so we have proposed a 
standby mode to analyze all available options, including MOX, 
to reach an agreed upon way to dispose of this weapons 
plutonium.
    Naval reactors, again, I would say a strong request to 
support the Navy's fleet of aircraft carriers and submarines. 
Nuclear propulsion is obviously central to our defense 
capabilities, and the interagency working group assigned high 
priority to initiatives, such as continuing the work on the 
Ohio class submarine replacement and spent fuel handling 
recapitalization.
    And finally the third area is a new one that we created 
through reorganization, that of the undersecretary for 
management and performance. The fiscal year 2015 budget request 
would provide $6-and-a-half billion for management and 
performance programs underneath the undersecretary, but also 
with the direct management programs that report to the office 
of the secretary.
    Importantly, the budget request reflects our move of the 
responsibility for environmental management program from the 
undersecretary for nuclear security, and I emphasize not NNSA, 
but the undersecretary, into a mainline responsibility for the 
management and performance undersecretary, to improve 
departmental management and execution of several technically 
complex cleanup missions.
    The budget request continued to support cleanup progress at 
16 sites across the complex, and we should remember that many 
projects have been successfully completed. What remains are not 
surprisingly, the most complex and unique ones that we need to 
address.
    By the way, and I am pleased to add kind of a news 
bulletin, that despite the incident at WIPP, the first shipment 
of transuranic waste from Los Alamos to WCS in Texas arrived 
early this morning for storage until WIPP re-opens. And the 
bigger message here is that while we are continuing to work to 
investigate the issues and remediate the issues at WIPP to 
reopen it, we are continuing to move forward with movement and 
packaging of true waste.
    In conclusion, we believe the fiscal year 2015 budget 
request will allow us to deliver innovative and transformative 
scientific and technological solutions to energy, security, 
economic and environmental challenges facing our country in 
this century.
    I took note of the 4 weeks for response. We will meet that. 
And thank you, and I am pleased to answer your questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Mr. Secretary.
    There are several issues that I want to talk on, which I 
will as we have different rounds of questions here, whether it 
is what is happening with a variety of the programs that you 
propose, what is going to happen with MOX, what is going to 
happen with USEC and other proposals and what the department's 
plan is for those things.
    But first, as a former member of the Blue Ribbon Commission 
and now as Secretary of Energy, what is your view on one of the 
more controversial issues that has divided the House and the 
Senate and the administration, of how we are going to address 
our nation's nuclear waste problems, and what does your fiscal 
year 2015 budget request do in order to comply with the Nuclear 
Waste Policy Act and move forward towards the safe geological 
storage of nuclear waste across the country? Because if we 
don't solve this problem, nuclear energy is not going to move 
forward as it should.
    Secretary Moniz. I certainly agree, Mr. Chairman, with the 
importance of our moving forward on waste management.
    And, perhaps not surprising, as you noted, as a former 
member of the Blue Ribbon Commission, and also as an analyst of 
these issues in my previous academic life, I strongly support 
the approach laid out by the Blue Ribbon Commission and in all 
of its key aspects endorsed by the administration.
    The key elements, clearly, are a consent-based approach, 
and any parallel pursuit of geological isolation and 
consolidated storage, starting with and hopefully independent 
of some of the discussions that you have referred to with 
regard to waste management, hopefully promptly moving towards 
something that it seems everyone agrees is critical, and that 
would be at least a pilot facility that would accept spent fuel 
from shut down reactors. So these are the key ingredients, we 
believe. There are many other organizational issues, but those 
are the key high level ingredients.
    I do want to emphasize that, as you know, we all know there 
have been some court rulings, one with the Nuclear Regulatory 
Commission in terms of restarting its process. We are providing 
the technical information that is required in terms of ground 
water, and in fact, we are making very good progress, and I 
think it is fair to say that we will certainly be delivering 
that to the NRC this quarter for their moving forward.
    So in the budget request, the key issue is that we are 
proposing activities, all certainly authorized under the 
Nuclear Waste Policy Act, to advance on issues like 
transportation and storage that we believe are absolutely 
essential for pursuing any waste strategy, certainly the 
consent-based strategy.
    Mr. Simpson. One other question, and I don't know quite how 
to answer this--or to ask this question and make it so that you 
can answer it.
    As I said in my opening statement, one of my concerns about 
the Department of Energy has been the stop-and-start strategy 
we have had ever since I have been on this committee. We start 
a new program, we end a new program, we start another program, 
we end that program, we start another program with every 
changing secretary, with every changing president, whatever. 
And while you allow and have to allow an administration the 
flexibility to institute the things that they ran on, these are 
long-term projects and it seems like we oftentimes don't get 
anything done because we keep this stop-and-start sort of 
strategy.
    Where do you see the Department of Energy? I will be 
upfront. I am a little concerned about SMR's, which is the road 
we are headed down now, with the recent B&W announcement, and I 
don't know how that is going to affect the SMR program or give 
us pause to think about the SMR program.
    Where do you see the department 5 years from now, 10 years 
from now, 20 years from now? What is your vision for this 
department?
    Secretary Moniz. Well, if I start at the high level of the 
vision----
    Mr. Simpson. Yeah.
    Secretary Moniz [continuing]. And then we can narrow down 
to some particular issues.
    First of all, I think there are two big kind of pillars 
that I see in terms of how we address our missions.
    One is that ultimately the major strength of the Department 
of Energy across all of its missions is, I would go so far as 
to say it is a science and technology powerhouse, and it is the 
application, the development and application of science and 
technology to these critical areas, with our national lab 
system being an important part of that, not exclusively, but a 
very important part of that at its core.
    Then the other thing I would say is I think we have, and I 
hope this will have 5- and 10-year life, through our 
reorganization, emphasized the three big things we must commit 
to the American people: the energy-science agenda, as we have 
described and then we can go into that in more detail in terms 
of what it means, in terms of energy security, in terms of 
transformative clean energy, how we accelerate that, et cetera; 
nuclear security, an absolute responsibility for the safety and 
reliability of the stockpile, without testing, as certified 
annually to the present and keeping nuclear materials safe; and 
third, the management and performance.
    I completely agree with the statements that you have made 
in the opening that we should not underestimate the substantial 
number of successes in programs and projects, and there are 
many, but there are too many that have suffered this issue of 
major cost overruns, with a common theme, well, an almost 
common theme, at least, with these projects that are baselined, 
so-called baselined before the projects are well understood at 
all, and I can go through on specific projects what that means.
    So my view is that on the energy and science first of all, 
number one, we must maintain for the long-term, I think our 
very successful support for the physical sciences and 
engineering in this country. That is a base for just about 
everything.
    On the energy side, I personally, there is no question, I 
am very committed to all of the above. I do believe, as the 
President has stated, we have to move on fossil, nuclear, 
renewables and efficiency, all with a view towards the future 
clean energy economy, and we can go back to the IPCC report 
later on that was mentioned by Ranking Member Lowey.
    So I think it is very important that we maintain that broad 
portfolio. Your statement that administrations may have 
different emphasis in different areas, but I think it is 
important that we sustain that for the long-term.
    On the nuclear security, we must meet our commitments to 
the Department of Defense, and this budget does, and as you 
know, it is not without controversy, it does commit to the W-
76, to the B-61, to the W-88, projects on schedule, that 
supports the triad.
    We had to stretch out some other things to do that, but we 
must do that, but we must remember that this is not only a job 
for this decade, it is a job for 5, 10, 25 years, which means 
we have to pay equal attention to maintaining the science and 
engineering base in our nuclear laboratories for supporting 
that critical mission.
    And management and performance, as I have said, I think we 
need to bring discipline. We have some active discussions going 
on around various projects, whether it is in South Carolina, 
Washington state, we can name others, like Oak Ridge, but we 
are trying to bring a discipline of recognizing the facts and 
responding to them and putting together reliable baselines when 
we have the information to do so.
    I think we are taking some creative approaches. I will 
mention, for example, in Washington state with the big WTP 
project, probably the biggest and most complex of all of our 
environmental cleanup projects, we have proposed to the state a 
new framework that we believe reflects the physical realities 
and yet moves quickly.
    Clearly the state said they have some different views, but 
I want to emphasize the commonality. We both agreed that we can 
move forward with the low activity waste, we both agreed, that 
there are technical problems that must be resolved. So I think 
we will just have to have a discussion now over the next few 
months about how to do that.
    UPF at Oak Ridge, I will just mention a second example. I 
am sorry I am going on so long, but it was an open-ended 
question.
    Mr. Simpson. Yes. It was.
    Secretary Moniz. There, I think again, we are trying to 
bring a new kind of discipline, where in this case, the key 
issue is, as was done for the plutonium facility at Los Alamos, 
getting, frankly, laboratory leadership, in looking at new ways 
to accomplish the mission at a lower cost.
    So we are committed to that project, we are committed to a 
budget cap, we are committed to a date, and right now we have 
an outstanding red team led by Tom Mason, the director of Oak 
Ridge, looking at that. We expect a report from him within 
weeks on that.
    So this is the kind of discipline we are trying to bring to 
this, and I think, and I agree, we need this to support the 
vision and our ability to execute the critical missions that we 
have assigned to us.
    Mr. Simpson. Thank you.
    Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    I would like to ask the Secretary if he thinks America is 
winning or losing the battle on becoming energy independent 
here at home?
    This is a chart from the Energy Information Administration 
showing from after World War II all the way until the great 
recession of 2008, continuing increase in imports and then, of 
course, with the deep recession, we had a reduction, and we 
have been doing better at home because of the Obama 
administration's policies, for an all-of-the-above strategy, 
but looking forward, Mr. Secretary, could you tell the American 
people what are the goalposts for going back to a growing 
economy, a robustly growing economy here at home, one where we 
are producing energy-related jobs in this country at a level 
commensurate with our population size?
    What are the goalposts that the Department of Energy sets 
so that the American people know whether we are winning or 
losing? Can you comment on that?
    And then secondly, can you tell us some of the inventions 
that the Department of Energy has sponsored that have made 
winning possible again for our country?
    You might start with natural gas, for example. The people 
listening might not be aware of what the investments of the 
Department of Energy have done to help our country dig 
ourselves out of this incredible hole.
    Secretary Moniz. Thank you for the question, Ranking Member 
Kaptur.
    First of all, it is clear that we are making dramatic 
progress towards relieving our dependence on foreign energy 
sources, particularly non-North American sources, and I want to 
emphasize that the work involves both the supply side and the 
demand side for having that balance.
    So if we take oil, for example, which historically has 
always been the issue associated with energy and security, 
since we have never been major natural gas importers, for 
example, then we are on a trajectory largely driven by the 
unconventional production of oil as well as gas, but oil. We 
are probably going to get at least pretty close to 10 million 
barrels a day of production within a few years. It is a 
significant increase from where we were in that graph that you 
showed, and I think that will continue, and that is helping our 
balance of payments, which you referred to in your opening 
remarks as well as, you know, the energy security equation.
    But what I want to emphasize, and this is very important 
for the independence idea, is that we are also focusing at the 
same time on three major directions to lessen our oil 
dependence. One is efficient vehicles both through the CAFE 
standards, but also through our technology developments, our 
manufacturing initiatives, to continue on this pathway.
    This is already having an impact, oil usage for 
transportation has not gone up. We are getting carbon 
emissions, contributions, carbon lowering, carbon emission 
lowering from that.
    Second path, we continue to work hard on alternative fuels 
for our transportation sector. The President in his State of 
the Union gave a strong emphasis to natural gas coming into the 
transportation system more robustly, but, you know, on somewhat 
longer time frame maybe by the end of the decade. We are 
pushing and making real progress on the whole range of advanced 
biofuels, including our work together with the Department of 
Defense and the Department of Agriculture. And then----
    Ms. Kaptur. I want to compliment you on that, Mr. 
Secretary.
    Secretary Moniz. Thank you.
    The third is the continuing focus on electrification of 
vehicles. Battery costs have come down by about a factor of two 
in the last 4 to 5 years, we need another factor of two to 
three for the large scale commercial market, but we should not 
lose sight of the fact that, you know, last year almost 100,000 
electric vehicles were sold in the United States, so we are 
making real progress. So it is both on the supply and demand 
side.
    Gas, we will continue to be--our EIA projects continued 
increases in our gas production, and, of course, we have 
provided so far conditional approvals, one final and five are 
at FERC right now, conditional approvals for the export of 
about 9.3 billion cubic feet per day. That is within the range 
of studies that say this should not have major domestic price 
increases, but yet I think sometimes we don't put this in 
perspective. 9.3 billion cubic feet per day is almost within a 
whisker equal to the amount of LNG exported by Qatar, currently 
by far the world's largest LNG exporter. And that goes back to 
the issues also of the economy and jobs and all kinds of 
issues.
    LNG, I mean, natural gas has, of course, given a big boost 
to our manufacturing sector. Probably $125 to $150 billion have 
been invested in new manufacturing capacity directly associated 
with natural gas.
    Then in addition, of course, nuclear, renewables and 
efficiency all contribute to the energy security equation quite 
clearly.
    In terms of the second part of your question, some of the 
department's contributions in these areas. Well, first of all, 
if we talk about the unconventional oil and gas, the department 
in its very first years, in the late 1970s and to 1980 started 
the first characterization of these unconventional reservoirs, 
and then less well known, but for the next really 20 years, a 
combination of the administration through FERC and the Congress 
through a time-limited tax incentive took that information and 
had technology transfer working with the independent companies 
to develop the technologies that are now being used to produce 
all this oil and gas. That was a very interesting program, 
which I could describe in more detail. So those are examples in 
those areas.
    With respect to coal, the department really brought in the 
first technologies for scrubbers in the 1980s, critical, and of 
course now we are looking at scrubbers for carbon dioxide, 
carbon capture for coal plants into the future.
    With renewables, I think it is pretty clear that the 
department has been critical in stimulating the deployment of 
renewables and the advancement of renewables. A good example is 
from the loan program where the first five utility scale 
floatable tank plants were given loans, loan guarantees, and 
now ten more are going forward with private sector funding.
    So I could go on, but I think I have taken too much time, 
but I think it is a very good picture in terms of, where we are 
and where we are going in terms of energy security.
    Ms. Kaptur. You know, Mr. Secretary, I have been very 
impressed with your systemic approach to many issues, for 
example, on the grid, looking at modernization of the grid, and 
also your work on the departmental management structure itself.
    I just wanted to take a second to say that if one 
approaches the systemic needs of manufacturing America, where a 
third of jobs have been lost in this country, over the last 
quarter century, I would encourage you to take as you are 
sending out requests for proposals, taking a look at 
manufacturing corridors, and I know you are, but the Duluth to 
Buffalo corridor, which has suffered disproportionately in this 
country, and it is a corridor that has over the years been 
involved in coal.
    Coal-fired utilities, I don't have to tell you this, I say 
this for others, coal shipments by sea, by rail, the largest 
number of coal-fired utilities have been shut down in this 
region, and we have this entire Great Lakes, St. Lawrence 
seaway corridor that really needs additional attention, and so 
I would urge you to think in the way that you are functioning 
in the department to look at adjustment policies that would 
allow these communities to recover more quickly.
    So, for example, if one is evaluating the shipment of 
natural gas, let's say, I don't know how that is all going to 
turn out, but the Great Lakes is the shortest distance between 
the United States and the ports of northern Europe, for 
example. If this region is not being considered as new staging 
areas are developed, well, what does that mean for the future? 
I think if you were to overlay where the pain is greatest in 
terms of manufacturing and a transition from our traditional 
power sources to something else, a systemic approach in 
advanced manufacturing and transition might be incorporated 
somehow in the proposals that you are seeking, because it is a 
corridor-wide challenge.
    And it isn't just one company; it is a network of 
companies, it is a network of systems that are just having to 
adjust to this change, and there isn't really a coherent 
umbrella as exists, for example, in the west with the Bureau of 
Reclamation or in the south with TVA, for example. Those aren't 
perfect, but we don't have anything like that in our region, so 
the Great Lakes suffer more.
    Some people say, hey, Marcy, you are a merchant economy, 
you know, love every minute of it. Well, you know, some of the 
minutes have been pretty rough.
    So I am just saying as you look at energy transition, 
please take a look at this corridor, and I know you are, but I 
am just encouraging you on in those efforts.
    I don't really have a question there. That was just a 
comment, but do I have time for one other question, Mr. 
Chairman, which can be answered very quickly?
    Mr. Simpson. Very quickly.
    Ms. Kaptur. Okay. In your biofuels research at the 
department, and I am very close to that issue, because Tom 
Harkin and I drafted the first title to an agriculture bill 
dealing with biofuels. It appears you have devoted significant 
research dollars to cellulosic and alcohol-based fuels, but oil 
crops, I have a question about, can you clarify DOE's biofuels 
research priorities and the funds dedicated both on the sugar 
side and on the oil side? Is there a difference?
    Secretary Moniz. Well, I think first of all, if one looks 
at scalability, then the cellulosic and energy crops have the 
largest scale potential, however, with the oils, I will mention 
two examples, or maybe three.
    The first, in the DOD, DOE, USDA program, with the Defense 
Production Act authority that we were given in fiscal year 
2014, we will be having our resources from the three agencies 
support, I believe it is, four projects, two of which are based 
upon oils and fats, so two of those four, I believe.
    Secondly, within our own program, there is the program 
around algae, which is an example of oils production.
    And third, and this one I know less about, but I can get 
more information for you later, is some work on genomics to 
looking for greater oil production from some energy crops.
    Ms. Kaptur. Thank you. We will look for additional 
information to be placed in the record on that question.
    Secretary Moniz. Okay. Great.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I was just 
struck by how remarkably quiet it is in here. It must be your 
firm leadership that has worked to make everybody so 
acquiescent here, but----
    Mr. Simpson. We all miss you here, but glad we could be----
    Mr. Frelinghuysen. Well, I am not here to stir things up, 
but, no, I haven't been on this committee for 20 years, so this 
is the quietest group that I have ever witnessed, and if----
    Secretary Moniz. Boring witness.
    Mr. Frelinghuysen. No, no. No. If it was based on 
likability, may I say, I have heard quite a few secretaries, we 
welcome your presence at the Department of Energy, and----
    Secretary Moniz. Thank you.
    Mr. Frelinghuysen [continuing]. And anything you can do, if 
you will pardon the expression, to shake it up and get more 
performance and better management practices, God speed to you. 
It is difficult.
    Secretary Moniz. Thank you.
    Mr. Frelinghuysen. Let me just say for the record, I am 
disappointed with the numbers for fusion, both domestic and 18 
percent reduction, I am going to leave that aside, but there 
may be some reasons for it. I don't want us leading from behind 
in that area. There we, too, work with our allies.
    I would like to focus on one of the concerns raised by 
Chairman Simpson, the ability of the National Nuclear Security 
Administration to meet the needs of the Department of Defense, 
and I quote from the chairman's remarks: ``Let me rephrase that 
to meet the needs of the Department of Defense in a way clearly 
communicated to and approved by Congress. It does us no good to 
have the Department of Energy agree to a work plan with the 
Department of Defense which we cannot afford, and your 
department's credibility has been sorely damaged by proposing 
cost plans which are rapidly exceeded.'' It goes on, ``this is 
a three-way relationship that is critical to security of this 
country, our country and needs your personal attention.''
    I know you have commented on it. I want you to make some 
more personal observation. Mr. Visclosky and I have sort of 
shifted. We are both on this committee, but we have shifted to 
roles on the defense appropriations committee. We would like to 
know where we are going in this area. I know there are issues 
of affordability, but you wouldn't have a department unless we 
had passed the Atomic Energy Act. I mean, whatever you have 
here, the sciences you have, the pyramid was built on the 
nuclear deterrent, and I would like to have some more personal 
reassurance from you that you are working closely with the 
Department of Defense.
    Secretary Moniz. Thank you.
    Frankly, I think we have reenergized the relationship with 
the Department of Defense, but I want to emphasize as well, it 
is not only with the Department of Defense, it is also with the 
National Security Council and OMB in what I think has been 
coming up to the fiscal year 2015 budget a very robust process, 
putting on the table the----
    Mr. Frelinghuysen. With all due respect to the OMB, we know 
they have an inordinate amount of power and influence over the 
process, but indeed you have certain responsibilities, which 
you have mentioned, which is the whole issue of certification, 
and we have these vast----
    Secretary Moniz. Right.
    Mr. Frelinghuysen [continuing]. Complexes where remarkable 
work is done to give you that assurance, but you still have to 
tell the story the way you need to tell the story but adhere 
here to OMB directives.
    Secretary Moniz. No. I will continue in that, sir, but I 
just wanted to emphasize, because I do believe that the proviso 
added in the chairman's statement about the affordability part 
is important, which is why on the policy side, clearly I think 
DOE, DOD and National Security Council are there, but again, we 
have to make it affordable and so I think OMB was a very 
important part of a four-way discussion.
    Secondly, as you know very well, last week Mr. Augustine 
and Admiral Mies testified on the initial findings of the 
congressional panel and they pointed out a number of the 
systemic issues that must be addressed, I agreed personally 
with all of those.
    And by the way, I think we are addressing them. We have a 
lot more work to do. We can talk about that. But I also want to 
note that in their testimony, they twice referenced bluntly the 
importance of an engaged secretary in these issues. And I can 
assure you that you have and will have as long as I am there an 
engaged Secretary in these issues. I think the process that led 
to the fiscal year 2015 budget request----
    Mr. Frelinghuysen. You are engaged in them and I say 
engaging.
    Secretary Moniz. That is not a universally shared view, but 
with those who are engaged.
    So I think a very important result, frankly, which I 
alluded to earlier is in this process, there came at the 
highest level a kind of a renewed look at and a renewed 
commitment to the fundamental strategy laid out in the nuclear 
posture review for how we are going to have a reliable triad, 
sustained over time, aligned with what one sees as the 
strategic challenges we face in this dimension, and those who 
have perhaps gotten a little more notice in the last month, 
shall we say.
    To do so, that is where the affordability came in. We had 
to put on the table, insist, what is it really going to cost, 
to do this. We had to stretch some things out in the plan. You 
will see, for example, the cruise missile had to be pushed out. 
But then to make it work goes back to the other question, that, 
well, to say we can afford it means we are going to have to 
meet the budget targets for, for example, the re-modernization 
of the complex.
    So that is where, again, like this UPF story comes in, we 
are absolutely committed to a $6-and-a-half billion dollar 
budget, we are absolutely committed to getting out of Building 
9212 by 2025 at the latest, and we are having to look 
creatively with our red team led by Tom Mason in terms of, how 
do we restructure the project to have the core capabilities 
absolutely preserved but make sure we come in on that budget. 
So I think it all has to fit together, and I feel we are making 
progress.
    Mr. Frelinghuysen. Well, I am glad you are making progress. 
And, of course, the nuclear posture is linked to the defense 
posture, and God only knows in recent months the defense 
posture seems to have been shifting all over the damn place.
    We have learned things about the Ukraine and Budapest 
agreement, and the Iranians are not slowing down what they are 
doing, the North Koreans are doing what they are doing. There 
are nuclear powers out there that some very strange and 
apparently, you know, some critical things can happen at any 
time, but I think this puts a huge burden on you working very 
closely with the Department of Defense, even given the budget 
limitations, to come up with a plan that gives us more----
    Secretary Moniz. Right. We would love to have a chance to 
come and talk more about the strategic directions maybe in a 
different environment.
    Mr. Frelinghuysen. Yeah.
    Secretary Moniz. And I think that would be extremely 
useful, because, in fact, another thing that I think Norm 
Augustine in particular emphasized is that for a little while, 
there has been maybe less focus in the national security 
discussions on the nuclear deterrent issues, and I think we----
    Mr. Frelinghuysen. It could be somebody whose opinion we--
you know, we respect and----
    Secretary Moniz. Absolutely.
    Mr. Frelinghuysen. And a credible asset.
    Secretary Moniz. And I completely agree with that statement 
that he made, and so that is where, frankly, if we could get 
more interaction on this and strategic thinking three-way, as 
you mentioned earlier, I think that would be enormously helpful 
in and of itself.
    Mr. Frelinghuysen. Okay. Well, I know Mr. Visclosky is here 
for himself, and I just appreciate the opportunity to work with 
him and the chairman and the ranking on this critical issue.
    Thank you very much.
    Secretary Moniz. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you, Mr. Chairman. We can certainly 
arrange some of those meetings between all of us and so we can 
get together and knock heads and find out where we are.
    Mr. Moniz. That would be great.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Chairman, before I begin with my questions, I want to 
welcome Secretary Moniz.
    Mr. Secretary, I want to personally thank you and your 
undersecretary. So this whole subcommittee will know, the 
Secretary has taken his time to meet with me personally on more 
than one occasion, has come to Oak Ridge, and we have had the 
hard conversations on so many complex issues. I am privileged 
to represent Oak Ridge, once known as the secret city. This is 
a great city, and I have said in my short tenure in Congress, I 
want to make sure it is the not-so-secret city. We have got a 
lot of everything that is great there. This was the birth place 
of the Manhattan Project, this is where we won the Cold War, 
and this is where we continue to lead the Nation.
    We have got, in my view, the premier, the premier lab at 
ORNL, we are doing super computing, advanced manufacturing, we 
have got the Y-12 plant, and, Mr. Secretary, I want to thank 
you for your commitment to building the UPF. I know it has had 
problems. I have a strong commitment to see the UPF built. The 
nation needs it. We have had some miscues, but we need to 
continue to move forward. I want to commend you for choosing 
Tom Mason to lead the red panel. I know they are doing good 
work, and we look forward to their report, but the men and 
women who work there deserve a safe facility. I know you have 
been to 9212, you have seen the facilities there. The working 
conditions are deplorable. We have got to fix that, not only 
for them, but for the nation.
    So let me say thank you for all you have done, and I have 
enjoyed working with you and your assistant secretaries who 
have come into the district, not only in Oak Ridge, but also to 
Chattanooga, and I appreciate that.
    Another issue that is less glamorous, but critically, 
critically important to our community in Oak Ridge, is land 
transfers. Mr. Secretary, this issue had been stalled for years 
where we clean up formerly dirty sites, legacy sites from the 
cold war and before, and we get that back to the community. You 
personally got the ball rolling on that again, and I thank you. 
We need to get these properties back on the tax rolls and away 
from the payment lieu of taxes. This revenue is critically 
important to Oak Ridge, so I thank you for those.
    I am going to ask a couple questions because I appreciate 
the fact that you have, I think, very thoroughly stated your 
commitment to UPF. And thank you. We will move forward with 
that.
    I want to talk about American Centrifuge, though. The 
American Centrifuge Project benefits our national security, 
preserves our unique manufacturing capabilities, and supports 
an American nuclear industry. The 2015 budget request did not 
fund ACP.
    Can you please tell the committee your plans on the status 
of the American Centrifuge Project. And what are your plans for 
the future?
    Secretary Moniz. Thank you, Mr. Fleischmann.
    And I also have enjoyed our opportunity to work together, 
especially in the areas that we agree on.
    Mr. Fleischmann. Yes. Thank you.
    Secretary Moniz. The ACP is an issue that we are working 
very hard on. Number one is there is no question that we 
continue to have a need to preserve an American technology for 
enrichment for defense purposes. Obviously, the ACP right now 
is the technology. It has successfully gone through meeting its 
technical milestones in the RD&D project that we have now 
finished funding.
    We have clearly a situation that right now is, perhaps 
unfortunately, very fluid for a couple of reasons. One is that 
the fiscal year 2014 appropriations funded the ACP facility and 
the associated work, which, for example, Oak Ridge is part of, 
as you well know--funded that facility through April 15 and 
provided the authority for reprogramming up to $57 million, I 
believe it is, out of other NNSA funds to get us through the 
rest of the year. We have to get through the rest of the year.
    So, actually, Acting Administrator Held I think is here 
somewhere--there he is--and is very actively seeing which left 
pocket will go to the right pocket to keep this going. Well, we 
have to keep it going this year. So that is our immediate 
issue, is to get that funding. And, frankly, it would be very, 
very desirable to make sure we can keep the 120 machines 
spinning there.
    Now, in our management approach, having accomplished the 
RD&D program and having this transition in the funding, then we 
are looking to manage the program going forward, actually, 
through Oak Ridge, in fact, which, of course, is the origin of 
the technology. So we have to preserve the technology, we have 
to preserve the IP, and we have to think about how we are going 
to go ahead to meet our national security obligations, which 
most immediately--it is not immediate, but the nearest term 
issue will be for tritium production for the stockpile.
    Mr. Fleischmann. Thank you, Mr. Secretary.
    Mr. Chairman, do I have some more time or----
    Mr. Simpson. Let's move on, and we will come back for a 
second round, if you would.
    Mr. Fleischmann. Thank you, sir.
    Mr. Simpson. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you. And, first, let me thank 
you for the department's support of Nuclear Power Plant Vogtle. 
I think you have demonstrated the importance of that project 
not only for the State of Georgia, but for the entire 
southeast, and I want to thank you for that.
    And in a somewhat related matter, the chairman referenced 
some issues within the department in managing various projects 
and mentioned MOX, which, as you know, is in South Carolina on 
its border with Georgia. And I want to touch on that project 
just a minute and see if you could help us understand what is 
going on there.
    Your statement, in essence, says it is being mothballed and 
that, ``It will be significantly more expensive than 
anticipated.'' Maybe you could go into that a little bit.
    Could you share with the Committee--is that a result of the 
project itself or is it a result of what the department has 
requested in change orders?
    Because it is our understanding that there have been many 
change orders requested sometimes once a week, if not more than 
that, in some cases costing hundreds of millions of dollars.
    My first question would be: Is putting this project on cold 
standby more a result of the original scope of the project or a 
result of the department's requested changes?
    Secretary Moniz. Well, I thank you for the question, Mr. 
Graves.
    And, by the way, it was a pleasure to be in Georgia for the 
Vogtle announcement, and I will be back in Georgia in a few 
weeks, in fact.
    Mr. Graves. That's great to hear.
    Secretary Moniz. With regards to the MOX Facility, I think 
it is a pretty, first of all, uniform understanding that we are 
talking now about a 30-billion-plus life cycle cost, which is 
quite a bit beyond what was originally bargained for.
    I think the origins of that are several. One is that--and 
the capital project itself is nearly a factor of three beyond 
original projections, certainly two and a half, at least.
    The first one of the problems was this baselining before 
the project was really understood. Secondly, there were a 
number--at least now, with hindsight, looking back--from what I 
understand, there were a number of assumptions made by the 
contractors in terms of how the experience of building a 
similar plant in France would transfer here, and it turned out 
there were a lot of incorrect assumptions both in how the plant 
would be physically constructed, but, also, in terms of 
interactions on safety standards, things of this type.
    We, of course, have NRC regulation of the plant, and I 
think there were a number of unanticipated issues there which 
substantially escalated the cost. Partly, it is performance. 
And, you know, we put together last June a really, I think, 
extraordinarily strong project team headed by one of my senior 
advisers that I recruited from the private sector--a lot of 
project experience--found a lot of holes, frankly, and there 
were some management changes that were needed and implemented.
    And, fourth, of course, there was a general escalation due 
to lack of funding profile being met and stretch-out and, as 
you know, that just continues to add money. So it is a lot of 
things that came together, and now the issue is--so this is a 
very important dialogue that we need to have with the Congress 
because, frankly, the issue is, ``Okay. Is $30 billion lifetime 
something that can be supported for the disposal of the 34 
tons''--by the way, there is a parallel 34 tons in Russia that 
would be disposed of by them, of course--''or not?''
    So that is why we are saying, ``Look, let's not do anything 
irreversible. But to protect the taxpayer money with the 
uncertainty of what is an affordable option going forward, 
let's have a look--a hard look at various options.''
    You know, in the 1990s, the National Academy of Sciences 
put forward something like 31 options for our plutonium 
disposal. We have narrowed that down to four or five to look at 
in more detail. So that is the proposal. And, look, this is a 
discussion that I think we are going to have to have with the 
Congress now over these next months.
    Mr. Graves. All right. And I hope you do, and I hope it is 
an open dialogue.
    I am listening to your response, and I didn't really hear 
any blame being put on the community or the contractor. More of 
it seemed to be related to the government or governmental 
changes or slowness in funding, but I would hope that they are 
still----
    Secretary Moniz. Well, if I may interject there, I am not 
leaving the contractor out of that equation. In fact, as I 
mentioned, I think there were some incorrect assumptions made 
in terms of transferability of the French.
    So I think there is--you know, if we want to do blame, 
there is plenty to go around. I am interested in solving 
problems. So I just want to move forward and see what we can 
do.
    Mr. Graves. Great.
    Secretary Moniz. We are committed to disposing of the 34 
tons of plutonium.
    Mr. Graves. Could you maybe share--what is the cost of cold 
standby? Is there a projected cost or a study----
    Secretary Moniz. So we are----
    Mr. Graves. Because we are talking about a facility that 
may be 60 percent complete at this point.
    Secretary Moniz. Yes. It depends how one counts. But, yes, 
that is fine.
    So we believe--I think it is--215 or $220 million for 
fiscal year 2015 would allow us to do a controlled transition 
to this State with no irreversible harm.
    Because MOX, by the way, is one of the options that is 
still on the table to be looked at. The problem is--and I 
understand it, and there is no way around it, and it is a 
challenge--it would be a real challenge--the workforce.
    Mr. Graves. Right.
    Secretary Moniz. You have a workforce that has--by the way, 
the safety record up to now has been exemplary in building it. 
So there is not anything about the workers.
    Mr. Graves. Okay.
    Secretary Moniz. So we have to manage this, and I think the 
best way to manage it is by trying to sit down and keep looking 
at it.
    Mr. Graves. Well, it is good to hear that MOX is still one 
of the options being considered. And you referenced the 
responsibility for taxpayer dollars, and that is certainly of 
interest to this committee.
    And I would be interested to know what the other 
alternatives are. Has that been determined yet or is that part 
of the study?
    Secretary Moniz. Well, there are both reactor alternatives 
and nonreactor alternatives. And there is another issue, that 
the reactor alternatives satisfy the agreement that we have 
with Russia at this time.
    The others would require a reopened dialogue. Dialogue 
right now is not so simple. So, anyway, yeah, we will spell out 
those--we are looking at four alternatives--four options 
specifically.
    Mr. Graves. Right. Okay. Thank you, Mr. Secretary.
    Secretary Moniz. And I will say preliminary view is that 
two of the other ones, frankly, are not less expensive than 
MOX.
    Mr. Graves. Okay.
    Secretary Moniz. But we are still working it.
    Mr. Graves. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you back.
    Secretary Moniz. It has been a long time.
    Mr. Visclosky. And I am very happy to see you in your 
position. I think you bring not only intellect, but energy, 
thoughtfulness, and some strong management to the position. And 
I do encourage you as you proceed in your responsibilities to 
consider everything possible to strengthen management at the 
Department of Energy.
    I have served on this subcommittee for a long period of 
time and have grown very tired, not from you, but others coming 
in and saying, ``Well, this was a unique project, one of a 
kind, and that is why we have management problems.'' That is 
why we have good managers. So I would encourage you in that.
    I also do want to thank the chair and follow up on Chairman 
Frelinghuysen's comments as well. In his opening statement, the 
chairman said it does us no good to have the Department of 
Energy agree to a work plan with the Department of Defense 
which we cannot afford, talking about the NNSA department. This 
is a three-way relationship that is critical to the security of 
this country, and it needs your personal attention.
    I would certainly associate myself with the chairman's 
observation as well as Mr. Frelinghuysen. Fortunately--and I 
say this very sincerely--I am very pleased that there is four 
people on this subcommittee who also serve on the Defense 
Subcommittee, given the interrelationship. I remain concerned, 
however, that we are going through modernization drills with 
some munitions that I have a question as to the delivery 
systems of potential existence into the future.
    I continue, despite the answers we receive in the 
Department of Defense hearings that, ``No. Everything is fine 
and our requirements are being met''--that, if those cost items 
that we are very concerned about on this subcommittee aren't on 
DOD's budget, that they can have all the requirements in the 
world and would trust that, at some point, if the 
communications aren't going well, if somebody hasn't thought 
out those requirements vis--vis the investments we need to have 
at NNSA--I would hope that there is some pushback and some 
positive tension, if you would, and that the subcommittee be 
made aware.
    Because, again, I think it is very good that there is four 
people on both of these subcommittees, and we would want to 
make sure you are part of those negotiations as opposed to NNSA 
being told what to do and would encourage you very, very 
strongly in that. And, again, associate myself with the 
chairman's opening remarks and Mr. Frelinghuysen's line of 
questioning.
    The one question I would have is--apparently, there is a 
proposal for a HydroNEXT Program that over a 5-year period of 
time would have a $100 million proposal relative to hydropower.
    Understand that there have been criticisms of their 
proposal--nothing new in our line of work--that the major 
constraints are capital cost, that the modular technologies of 
small dams require too much up-front investment, and that 
diverting water for electricity generation, particularly in the 
west, isn't practical.
    Would you just have some comments, if you would, as to the 
criticisms that were raised.
    And the second question I have: Is this in any way 
diminishing the department's attention to research on how we 
can best use tidal power and, also, rediverting resources from 
tidal power research to the new initiative?
    Secretary Moniz. Thank you, Mr. Visclosky.
    And it is good to renew our dialogue after many, many 
years.
    Mr. Visclosky. You have held up a lot better than I have. 
That is all I have got to say.
    Secretary Moniz. No. No.
    If I may just comment on your first statement before 
getting to your question. As we discussed earlier, I think 
then--the chairman, I think, took interest in maybe getting 
exactly the kind of dialogue that you described set up, if we 
could talk about--at a more strategic level about the issues 
going forward with the stockpile.
    And I agree with you that those ultimately need to be 
discussed as well in the context of the delivery systems and 
the way one is postured. That is very directly relevant to the 
part of the program that was shifted downstream a little bit in 
terms of the cruise missile.
    Mr. Visclosky. Uh-huh.
    Secretary Moniz. With regard to hydro, first, let me say 
straightforwardly that, in the budget proposal, within the 
constraints, we increased the amount for the water program, but 
we did shift funds more to the HydroNEXT side than the 
Hydrokinetic. Again, I am happy in all of these issues to have 
a dialogue about that.
    But right now what we saw was a very, very strong push 
coming out of the private sector in terms of an enormous 
potential for small hydro. They are talking about 70 gigawatts 
potential, and this is something, obviously, we have 
discussions with others. The Army Corps of Engineers for 
example is obviously critical in many of those discussions.
    So that is what the budget proposal is at the moment, 
looking at what might be a relatively near-term, major 
additional low-carbon source with microhydro. A lot of people 
have come forward in the private sector with the idea that this 
could be a relatively short-term positive.
    But to be honest, within the fixed budget--well, not fixed 
budget--we went up, but it did lead to a proposal for 20, I 
think, or 25 percent reduction in Hydrokinetic.
    Mr. Visclosky. Okay. Secretary, thank you.
    Thank you, Mr. Chairman, very much.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. We have never had the pleasure of 
visiting before. I am Jeff Fortenberry from Lincoln, Nebraska.
    I want to tell you a quick story. I ran into an old friend 
recently. Danny Kluthe is a hog farmer. Have you ever spent 
time on a hog farm?
    Secretary Moniz. I cannot say that I have. No.
    Mr. Fortenberry. There is a lot of energy there, let me 
just tell you.
    And so Danny is an entrepreneur and very creative and a 
number of years back decided to capture, basically, the manure 
in a pit, and the methane that was generated off of there was 
used to produce electricity.
    Secretary Moniz. Uh-huh.
    Mr. Fortenberry. Danny basically reconfigured his system so 
that now he is moving that methane into his truck, blending it 
in some sort of proprietary fashion, as I understand, with 
diesel and getting 70 miles to the gallon in his truck.
    You are welcome to come see it. I think you would enjoy it.
    Secretary Moniz. Could we drive it here? That is 
interesting, obviously.
    Mr. Fortenberry. The important policy point is this: The 
energy entrepreneurs who are out there who are working on 
distributed systems of energy generation and renewables are, I 
think, on the cusp of a lot of new innovative approaches here. 
And I appreciate what your disposition is on attempting to 
leverage the public resources department to unleash that 
potential. It is important.
    But there are innovators out there like this who you might 
overlook in the sense--because they are so small, but, 
nonetheless, they are doing very, very important leading-edge 
things and helping solve some of the most critical problems 
regarding our own energy independence as well as environmental 
sensitivity.
    The broader point I wanted to make is I want to emphasize 
something that Congressman Frelinghuysen said. To gather us, 
perhaps, in another appropriate setting with DOD officials and 
National Security Council officials to review and talk about 
the interactions regarding nuclear security strategy is of 
utmost importance.
    And I would like--Mr. Chairman, I hope that we can 
accomplish this quickly rather than sitting out there--this is 
a goal that we need to do. This is an urgent task in a matter 
of weeks, not even months.
    You had commented that there has never been, from your 
perspective, better interaction, dialogue, and, again, 
strategic thinking. We need to be a part of that. Perhaps one 
of the most important things that you and I can do in our time 
of public service is to ensure that we decrease the probability 
of the use of a nuclear device to as close to zero as possible.
    Now, nuclear deterrence has an important role in achieving 
that, but so do other essential nonproliferation initiatives. 
In the Congress, I have helped form a nuclear security working 
group in order to try to help Congress--it is a bipartisan 
initiative--to get our arms around this spectrum of nuclear 
security issues, which is complicated and cross-jurisdictional.
    Now, in that regard, I wanted to talk to you about the 
reduction of the defense nuclear nonproliferation budget. You 
suggest that their $400 million reduction is somewhat due to 
the MOX Facility issue.
    But does it impact other nonproliferation initiatives that 
you are undertaking, such as the global threat reduction?
    Secretary Moniz. Thank you for the comment and question and 
certainly on the first part.
    Again, I think this idea of us having a little caucus, 
maybe a sustained caucus, would be really very, very helpful, 
and I could not welcome that more.
    Mr. Fortenberry. Mr. Chairman, what is the pathway to 
getting that done shortly? Sorry to be presumptuous and----
    Mr. Simpson. We will talk later.
    Mr. Fortenberry. Okay. That is a good answer. I will 
obviously be raising it. It puts an accent on its importance.
    Secretary Moniz. And the second point you made which I 
would like to align with is that we should be thinking about 
the nuclear weapons program and the nonproliferation program as 
really part of the same objective in terms of nuclear security, 
because sometimes they are viewed as kind of like alien 
programs.
    Mr. Fortenberry. Right.
    Secretary Moniz. They are actually--it is the same 
objective, ultimately.
    Now, in terms of the budget, there is no question that, for 
example, the GTRI program does have a reduction in this budget. 
I have said publicly that, you know, I am disappointed that we 
could not do a little bit better with that budget.
    Mr. Fortenberry. Well, let's fix that. Why don't we fix 
that?
    Secretary Moniz. Well, it is the question of--well, with 
the 050 constraints, and balancing these priorities--we felt we 
just had to get the weapons program on track for--again, an 
affordable deterrent within the Nuclear Posture Review 
approach.
    Now, in the GTRI, I do want--or the rest of the 
nonproliferation program, I mean, I do want to emphasize that 
we believe this is a strong program. Over the last few years, 
we have had a real kind of surge in that program in terms of--
--
    Mr. Fortenberry. Appropriately so.
    Secretary Moniz [continuing]. In terms of the materials. 
But with this budget, we will still continue to have strong 
nuclear materials repatriation programs.
    As I mentioned last--I think it was just last week in The 
Hague--made the announcement with Japan, which was a very 
important announcement, in terms of hundreds of kilograms of 
plutonium and HEU--weapons-grade HEU. We will continue reactor 
conversions. So I think, you know, it is an issue of how much 
we can do, obviously, but I do want to--we will have a strong 
program at this level.
    Mr. Fortenberry. In terms of, again, prioritization--and we 
all have to make hard choices--we cannot react to a nuclear 
incident. We can't react. It is too severe. We have to prevent.
    And the problem is the technology has spread. We are not in 
a post-World War II period anymore where you just had a very 
few actors with access to this technology and capacity to use 
it, if they chose to do so.
    Plus, the issue of transnational groups and the problem of 
loose material, again, trying to get our arms around the 
spectrum of potential threats in this regard, is complicated.
    So I think it ties into what we all seem to be in agreement 
on of getting in another setting to talking about the 
interdependency of what you are doing, as well as the Defense, 
as well as the White House, but also ensuring that we are not 
somehow just considering these budgetary requests alongside 
other important things, but in terms of outcomes aren't quite 
as essential.
    So that is my emphasis to you. And I hope that, as we move 
forward--you are talking about these programs being strong. In 
terms of a priority, it is absolutely essential. We cannot let 
something happen here.
    Now, I have noticed that you have undertaken a management 
restructuring and created a new undersecretary for nuclear 
security.
    Do I have that understanding correct?
    Secretary Moniz. No. Actually, that undersecretary was 
preexisting. It is equal to the administrator of NNSA.
    Mr. Fortenberry. Is that what the change is?
    Secretary Moniz. No. No.
    So the change really was in combining the undersecretaries 
of energy and of science into an undersecretary for energy and 
science, creating then a new undersecretary for management and 
performance and moving the environmental management program 
from the undersecretary for nuclear security under the 
management and performance organization.
    Mr. Fortenberry. Okay. I am sorry. I misunderstood that.
    Secretary Moniz. No. No.
    Mr. Fortenberry. I thought that was, again, an attempt to 
do what I am suggesting, to, again, heighten the intensity of 
need in this particular policy area.
    Secretary Moniz. But if I may add a bit more, because it is 
an area that I am very, very committed to.
    Number one, the office, DNN, has been working on a kind of 
over-the-horizon piece of work. Today let's look at the threats 
going out and make sure we have got our program focused on the 
right threats.
    But that is feeding into something that I charged the 
Secretary of Energy Advisory Board to look at, NN, and the 
directions, the threat space, et cetera. That is chaired by Al 
Carnasale, who you may know, is very highly respected in these 
areas.
    And the task force will report at the end of the calendar 
year, although they will probably informally be able to provide 
some observations in the summertime, and be happy to get you--
--
    Mr. Fortenberry. That would be helpful.
    Secretary Moniz [continuing]. Informed about that SEAB 
process.
    Mr. Fortenberry. That would be very helpful.
    Mr. Chairman, one other question right quick regarding the 
EDR project. We had an extensive hearing on this last week or 
so.
    It seems to me, by our proposed reductions in terms of our 
contribution, it is an admission that the chaotic management of 
that international effort is a very significant problem. And 
what I don't want to see is us 2, 3 years from now having spent 
even more money on this saying that it is going to go into cold 
storage.
    It is unclear to me whether or not the proposed trajectory 
of some actual physical product is real. And, again, if we are 
going to end up wasting money in 2 to 3 years, is it necessary 
to decelerate this now?
    Secretary Moniz. Sir, I am recused from discussions about 
the whole fusion program. But the Acting Director of the Office 
of Science is here and could answer your question, if you 
would--the chairman permits.
    Mr. Simpson. That is fine with me.
    Mr. Fortenberry. Okay.
    Secretary Moniz. This is Pat Dehmer.
    Ms. Dehmer. We talked about this last week when I was here.
    Mr. Fortenberry. It is always fun to reemphasize things.
    Ms. Dehmer. Isn't it? Yeah.
    And my answer is going to be the same, obviously. We are 
waiting for the International Organization to derive a baseline 
for the project. That won't happen until a year from this 
coming summer, June, July 2015. And we are going to reassess a 
year at a time now.
    The $150 million for this year we believe is the correct 
amount. We believe that maintaining our commitment to the joint 
implementing agreement is the right thing to do. So taking 
everything into consideration, the $150 million for this year 
is the correct amount. And we are going to watch very carefully 
what happens in the future.
    Mr. Fortenberry. One idea that I thought of after your 
testimony last week: Instead of having some sort of annual 
review, what if we broke that up into even more micro tranches 
and looked at it quarterly to see if there is reasonable 
management initiative that brings about the reorganization that 
gives us some higher level of certainty that we are going to 
produce a product here that is worth the investment of taxpayer 
dollars?
    Ms. Dehmer. Well, we certainly do watch what the 
International Organization, the IO, is doing on a more frequent 
than an annual basis.
    So right now they have the management assessment in front 
of them. They have committed to look at all the 
recommendations.
    What I am looking for is that they accept all the 
recommendations, they make a corrective action plan, and they 
implement it. And we will be watching that much more frequently 
than annually.
    Mr. Fortenberry. Back to the question of priorities that we 
just talked about with the Secretary, if we are looking at the 
creation of a star and we are not exactly sure whether or not 
we can do that and we are pouring lots and lots of money into 
it versus trying to prevent the explosion of a nuclear weapon 
in an American city, there is a difference in priorities there.
    Ms. Dehmer. I understand.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you. I thought I heard that question--or 
that answer last week.
    Let me ask you again--get back into the subject that a few 
people have mentioned and you have responded to to some degree.
    First, you get criticized for not being careful that you 
don't jump into a project that we are going to put in cold 
storage down the road. Then you get criticized for putting a 
project in cold storage when it is down the road.
    It is one of the frustrations I have, I guess, here. You 
know, I look at, what, $14, $15 billion we spent drilling a 
hole in the ground in Nevada that is, I guess, a good place to 
store their records, in a hole in the ground. $3.2 billion we 
have spent so far on MOX.
    We had a debate in Congress on whether MOX was the right 
thing to do, and there were Members of Congress opposed to it 
and Members of Congress supportive of it.
    Chairman Hobson was very critical of MOX. He tried to kill 
it several times while he was chairman of this committee. But, 
nevertheless, Congress went ahead with it.
    Yeah, it has had cost overruns. You could say that is true 
of the waste treatment plant in Hanford, also. We did MOX for a 
purpose, and we had an agreement with Russia. And now we are 
putting it in, what, cold standby status or whatever?
    Secretary Moniz. Uh-huh.
    Mr. Simpson. It is not just that we are going to put this 
in--I mean, everybody is going to stop working there for a 
while because there is no money to continue the construction.
    There are facilities all around the country, contractors 
that work to provide the services for the MOX project. All of 
those go on standby, if you will.
    There is a cost of maintaining this in a standby status, 
and then there is a cost if it is one of the choices that you 
choose to go ahead with MOX in restarting it.
    Secretary Moniz. Uh-huh.
    Mr. Simpson. And there is the potential loss of those 
contractors who no longer want to deal with the Federal 
Government or have lost employees.
    I am thinking of a couple of companies that I am well aware 
of that are providing facilities that have to have welders that 
are certified to work on nuclear processes. They are going to 
go because they don't have any more work anymore. So there is a 
cost of restarting it.
    Is it wise to put it in cold standby and incur those costs 
while you are deciding what you want to do or should we go 
ahead with it while you decide what you want to do? There are 
costs both ways.
    Secretary Moniz. Uh-huh. Yes. And, obviously, we have made 
the choice of going to the standby, recognizing the issues that 
you have said.
    In doing that, we will be looking at how we can, in some 
sense, soften the blow in terms of some of the skills, because 
putting it into standby is not itself a simple action. It 
requires highly technical people, but, obviously, a reduced 
number to go there.
    So, you know, it is a judgment on optionality in terms of--
you know, if in a year or a year and a half one decides that 
MOX is not the way to go, then there would be the issue of 
having spent another hundreds of millions of dollars on a 
project, but there are the downsides the other way. You know, I 
think those are facts.
    The other constraint, of course, was the 050 cap. And so, 
you know, I have to say that was part of reaching the decision 
on that balance of issues----
    Mr. Simpson. Sure.
    Secretary Moniz [continuing]. Because there is a difference 
there of, you know, maybe $300 million.
    So this is not an easy--not an easy decision. It is not 
something that, you know, was a lot of fun. But we drilled down 
and we said, during Mr. Graves'--I mean, the life cycle cost, 
the question is: Is the country prepared to spend, you know, a 
better part of a billion dollars a year for decades?
    Mr. Simpson. Where did the life cycle cost of $30 billion 
come from? Because I have heard substantially different 
numbers.
    Secretary Moniz. Well, what I would say is the--first of 
all, that is part of our internal team, as I mentioned, under 
the leadership of one of the people I recruited who had 
substantial private-sector management in project and investment 
history.
    The GAO came out with a report recently that talked about 
24 or 25 billion, but said it is almost certainly light. In 
fact, they had not incorporated certain issues. So I would say 
they are in the same place.
    And the Army Corps of Engineers we also brought in to look 
at the capital facility and they, if anything, are probably a 
little bit higher than we are on it. So I just think right now 
all the information points to that being probably pretty much 
correct.
    The other thing is that the team that we put together 
starting last June has worked intensively with the contractors, 
looking for ways to reduce costs and, frankly, other ways of 
sharing risk, maybe a different contract structure for part of 
the project.
    And those have been very, very professional discussions 
that went on for a long time. We came out of the discussions, 
however, not seeing any reason to think that the cost estimate 
was in any way incorrect.
    Mr. Simpson. Well, you said you are looking at four 
different options, a couple of them probably as expensive as 
MOX, a couple of them, I assume, less expensive than MOX.
    Will those meet the Russian agreement?
    Secretary Moniz. Not presently.
    Mr. Simpson. So you are going to have to renegotiate with 
Russia?
    Secretary Moniz. That would have to be a discussion with 
the Russians. Correct.
    Mr. Simpson. That will be interesting.
    Secretary Moniz. I did have a couple of discussions with 
them earlier on. Of course, this was before decisions were 
made. But those were not in the recent months, shall we say.
    Mr. Simpson. Let's talk for just a minute----
    Secretary Moniz. Well, actually, for the record, I want to 
make sure that I don't provide any misinformation.
    I have not had any discussions with them in recent times 
about, you know, the decision and the need to maybe--the 
possible need to rediscuss this.
    But just for the record, I want to make sure that I--I did 
as a courtesy inform just prior to the budget being public--
inform the ambassador that this was going forward and that, 
when a dialogue is possible, we may need a dialogue.
    Mr. Simpson. Okay.
    Secretary Moniz. Yeah.
    Mr. Simpson. SMRs. Did the B&W announcement concern you? 
And what does it do to the future of SMRs? And the reason we 
build, do the research in building SMRs, or anything else, 
actually, is because there is a private-sector interest and a 
potential commercial interest in doing those things.
    If B&W is having trouble finding that private-sector 
interest, does that concern you about the future of SMRs, in 
general?
    Secretary Moniz. To a certain extent.
    But the other side of the coin is--and this was prior to 
the most recent B&W statement--and I should say we are--not 
surprisingly, we are in an intensive dialogue with them right 
now in terms of the path forward, as well as, by the way, going 
along very well is the discussion with the second awardee, Nv 
Scale.
    But the other side of the coin is last month, for example, 
I had discussions with some major utility CEOs who historically 
have had interest in nuclear, and I asked them flat out, you 
know, ``Look, is this a technology that is of any interest to 
you?'' And the answer was uniformly, ``Yes.''
    And the timing is critical. What they said is that, you 
know, ``In the 2025 time period is when we have to make 
decisions about this.'' And this is certainly a player in those 
discussions, which is why that is--the critical thing is in the 
program as we had put forward. It was to get the kind of 
generic design application to NRC within years and to have a 
first plant of each design built prior to 2025.
    So the timing looks to be just about right to hit that 
market point, and that is why, frankly, an announcement for any 
substantial deferral does trouble me because I didn't want to 
miss the market. So----
    Mr. Simpson. Just one other subject is USEC and what is 
going to happen there. As you know, in last year's conference 
report, we included $62 million to keep it operating in the 
research and development agreement through April of this year.
    Secretary Moniz. Uh-huh.
    Mr. Simpson. Plus another $56.6 million of transfer 
authority available after we approve a path forward for 
domestic enrichment technologies for national security needs.
    Do you still believe there is a national security need for 
domestic enrichment?
    Secretary Moniz. I do.
    Mr. Simpson. Mid-April is approaching relatively rapidly. 
Have you made a decision yet on what you are going to do in 
operating--what you said earlier. It would be nice to keep 
the--what is the name?--spinning----
    Secretary Moniz. The machines.
    Mr. Simpson. The machines spinning. Yeah. Right.
    Have you had discussions with USEC on what they will do, 
because, if they are, in fact, as you know, in mid-April going 
to be running out of money, they are going to have to send out 
layoff notices to their employees.
    Have you had those discussions with them so that they know 
what is going on so that their employees will know what is 
going on or are we looking at transferring $10 million to them 
to get them through that month of April--or that period?
    Secretary Moniz. So we are executing the program as it was 
laid out. And, again, just to repeat, that the technical 
milestones were all met in terms of the performance of the 
centrifuges.
    Mr. Simpson. Right.
    Secretary Moniz. We are, number one, as I said earlier, 
looking at the reprogramming to get that $56 or $57 million to 
continue with the facility. We are committed to continuing that 
technology development, but we cannot be, you know, committed 
to a specific manager.
    And so our current plan--and this is understood--is that 
the responsibility for managing it will novate to Oak Ridge, 
which is where the technology originated.
    But, you know, I think it is quite reasonable to speculate 
that, of course, the skilled workforce working on those 
machines will then have to be kept on one way or another, 
probably--if I had to guess--and this is strictly a guess--
through like a subcontract, for example, to USEC through them.
    Mr. Simpson. Uh-huh.
    Secretary Moniz. Now, that is separate from the rest of the 
company's challenges. We all know they are in Chapter 11 at the 
moment.
    And, you know, the whole uranium enrichment business is 
quite different. In fact, to be honest, you know, the ACP was 
being developed by USEC because it has a commercial 
opportunity.
    Well, I think nobody believes right now that there is any 
room in that market for a new commercial opportunity. So we 
have to put our focus now on the national security obligations 
as opposed to the commercial world.
    But, of course, if we keep the technology going for 
national security purposes and the uranium markets are quite 
different, nuclear comes back on, you know, the Japanese 
restart some reactors and other builds come on, well, then, 
maybe in the future that could then be commercially viable.
    Mr. Simpson. Do you expect it to be run cheaper by the 
national lab than you do by the company?
    Secretary Moniz. I think that, for this particular task, it 
is really about maintaining the technology and the IP, which is 
what we are focusing on right now.
    And then, if the commitment is made to go to a full 
national security train, then that would require manufacturing 
more. And there is a supply chain out there which, of course, 
USEC was drawing upon.
    Mr. Simpson. Okay. Ms. Kaptur.
    Ms. Kaptur. Thank you.
    I want to associate myself with your remarks, Mr. Chairman, 
and, also, point out, again, each of us exist in a different 
universe sometimes.
    But in terms of USEC and Ohio, the highest unemployment 
counties are those counties in which it has its major 
operation. So I just wanted to put that on the table.
    I think, Mr. Secretary, you are so important and your 
department is so important in America's future. I always like 
to cast my remarks in the broadest frame.
    And I began earlier today with some statistics about how 
significant our energy deficit has been for a number of years 
and linking that to our vehicular deficit using the figure of 
$2.3 trillion in the red since--in the last decade.
    If I were to go back and say how far are we in the red in 
terms of our energy dependence, our imports, back to 1973, it 
would be $5.1 trillion, $5.1 trillion more imports than 
exports, no balance. And if we were to add to that our 
vehicular imbalance, it would more than double. We would we 
would be well over $10 trillion.
    We look at our budget deficit and we all have views of why 
we have a budget deficit. But, honestly, when you are 
hemorrhaging on the trade accounts a half a trillion dollars a 
year, led by energy and vehicle imports, it becomes pretty 
clear what has happened to the diminishment of economic growth 
in our country.
    Right now, we have over 10.5 million Americans still 
unemployed, many working full-time for poverty wages and people 
who literally have dropped out. They have just dropped out. And 
they are in those counties where USEC functions right now, and 
they are in hundreds of other places around this country.
    So the broad frame we operate in as a country is: How are 
we all going to work together to pull this team forward using 
energy and its infinite capacity to lead us forward to help 
heal this wound so that we don't throttle economic growth 
anymore in this country and that we are able to unleash the 
power of this economy again? And we are seriously challenged in 
that regard.
    Now, I wanted to say one of the sectors that has not been 
hemorrhaging is agriculture, and there is a whole substructure 
in our economy that makes their success possible. So we have 
success stories amid the red ink. And we need to think about: 
Why does that happen? What is that structure?
    And I wanted to say to you, Mr. Secretary, you have the 
vision to work with other departments, Department of Defense, 
Department of Agriculture. And so my next question will relate 
to some of these relationships that you have built, important 
ones, and particularly focused with the Department of 
Agriculture.
    With the pressures of climate change, which are real in 
every part of this country, our growing western water 
shortages, which one Senator from California has described to 
me as California becoming a desert, with the increasing cost of 
transporting food across this country, how can the Department 
of Energy, through your incredible research facilities, 
contribute to the redesign of new energy and water-efficient, 
climate-controlled, canopy-under-canopy production and develop 
food platforms targeted to regions that have abundant fresh 
water, where the agricultural base has the capacity to innovate 
and adapt this new technology for four-season production?
    I think we are at the beginning of a revolution in 
agriculture in this country because of climate change. And for 
those regions that have the capacity to produce undercover, I 
find these structures completely 19th century. Now, their 
sellers will say, ``Oh, Congresswoman, that is an 
overstatement.''
    But I have greenhouse producers I represent using 1946 
boilers. We don't have solar technologies integrated in our 
canopies. And, frankly, we don't have cost-effective canopy-
under-canopy production. We do not have systems that ration 
water, use it most efficiently and are able to integrate the 
energy and water demands of modern food production.
    Can you give us some insight in the kinds of relationships 
you have with the Department of Agriculture? And could the two 
of you together, these two massive departments, one of which 
produces trade surpluses and the other one which produces trade 
deficits, put your mind together to help America heal this 
major wound that we are facing with these trade deficits?
    Secretary Moniz. I would only quibble with our causing 
trade deficits. We are trying to reduce the trade deficits.
    Ms. Kaptur. That is good to hear. But it is so slow, Mr. 
Secretary. 40 years. How long has your department been around? 
1979, was it?
    Secretary Moniz. 1977.
    Ms. Kaptur. 1977. So think about this.
    Secretary Moniz. Right. So--well, it is interesting. First 
of all, let me say a few things that would touch on some of the 
areas that you mentioned individually and then maybe come back 
to more the system view.
    Certainly, in terms of the water issues, we have ramped up 
an energy water nexus activity because we do think this is an 
increasing problem and, with warming, it will just keep getting 
worse.
    And, in fact, part of the issue is the pattern, as long 
expected, which we seem to be seeing in front of us, is, 
roughly speaking, you know, dry places getting dryer and wet 
places getting wetter and neither is good----
    Ms. Kaptur. Yes. Correct.
    Secretary Moniz [continuing]. Because there are runoff 
problems with some of these intense storms, et cetera, et 
cetera. So that is one thing that we--and probably next year 
will be more visible in terms of what we want to do in terms of 
energy and water.
    Cost of transporting food you mentioned. And I am sorry. 
This will be slow as well. But, for example, programs like the 
SuperTruck program that we have, just a few weeks ago, I 
stepped into the cab of the first--I wasn't allowed to drive 
it, but I stepped into the cab of the first product.
    It was a combination of Cummins and Peterbilt in terms of a 
class 8--you know, class 8 vehicle, which had energy efficiency 
between 60 and 70 percent better than the standard class 8 
vehicle.
    All those technologies are not yet ready for commercial 
deployment, but I think over the next 10 years you will see 
them go out there. So big impact on that. And class 8 vehicles 
do use a lot of the transportation fuel in this country.
    In terms of water-efficient food platforms, there, I think, 
you know, the--and I don't know--and, actually, Pat Dehmer 
could probably say more.
    But in a general sense, things like the work of our Joint 
Genome Institute, part of that is looking for more, you know, 
water--or less water-tolerant plants, et cetera, for various 
applications. So those all are relevant.
    But for the specific problem you mentioned, I am not aware 
of any kind of system approach that we have. That is something 
that I could talk with Secretary Vilsack about, potentially, in 
terms of a joint program.
    Ms. Kaptur. I thank you, Mr. Secretary, for hearing me. You 
always hear us. You are not able to change that flagship 
department that you run always so quickly, but I think just to 
have the insight of what is at stake here----
    Secretary Moniz. Uh-huh.
    Ms. Kaptur. And when I talked about the parts of the 
country that are enduring such difficult economic 
circumstances, the proper technology and training can lead to 
new industry in places that it doesn't currently exist, and I 
think your department, in cooperation with the Department of 
Agriculture, can really do some extraordinary development.
    If I take a county like Cuyahoga County in Ohio, which has 
lost enormous capacity--they used to be the leading greenhouse-
producing county in Ohio because it sits next to a great fresh 
water lake. With new technology, they could restore some of 
that production. The same is true next door in Lorain County, 
where U.S. Steel and Republic Steel function.
    But that isn't all they can do. They have incredible 
landscape industries, the third--second largest growing sector 
in Ohio now in the agriculture front. But we haven't put the 
science together.
    And for you to talk to the Department of Agriculture is a 
Washington miracle, that we would actually have two of these 
stovepipes talking to one another and thinking about creating 
the future, whether it is biofuels or, in this case, food-
production platforms, which could also be, by the way, fish-
production platforms, and thinking about ways of helping our 
greenhouse growers, for example, to produce woody plants much 
more efficiently than they are currently doing.
    I haven't seen a single canopy platform that has solar 
embedded in the canopy itself. I am thinking: What is holding 
this industry up? Why are we functioning like the 19th century 
here? Why are we doing this?
    Secretary Moniz. I think the Dutch are quite advanced in 
these areas.
    Ms. Kaptur. The Dutch are very advanced, and the Belgians 
are very advanced. The problem is they have a cap-and-trade 
system in Europe that gives tremendous energy subsidies to 
their producers.
    And I am very worried about this country and our inability 
to meet the water and energy challenge of their subsidy system 
versus ours in a sector, agriculture, in particular, that has 
provided a net positive to us in terms of our trade balance.
    And I think the energy-water nexus--you mentioned genomics 
as well. I was at an Israeli seed facility. Unbelievable 
tomatoes they are producing there with limited water. 
Unbelievable.
    We need to be as agile. And, unfortunately, I can tell you 
we are not. Even though the people out there are working very 
hard, they are working with old technology.
    So I thank you very much for allowing me to place that on 
the record.
    And could you, finally, Mr. Secretary, tell us a little bit 
more. As you look to the future for your advanced manufacturing 
initiative, lead us through the next year. What is the 
department looking for? What are you hoping for?
    You have got cooperative agreements with the Department of 
Defense, with the Department of Agriculture. You have ideas 
about new technologies that you want to advance. Tell America 
what you hope to achieve in the next year in this critical 
field.
    Secretary Moniz. Well, once again, you know, the outcomes 
will be over several years, but what we want to get moving and 
have moved are--so far, we have done 2.4 of these manufacturing 
centers.
    The .4 is in Ohio, where the Department of Defense is the 
larger investor to us. And then we have one in North Carolina 
right now and one that is open right now for competition.
    But I think, first of all, the important thing is the theme 
here is to focus on the kind of cross-cutting, kind of enabling 
manufacturing technologies that will give broad advantage in 
the United States.
    So the first one that we were involved in is on 3D printing 
and advancing the manufacturing technologies there. And I see 
Mr. Fleischmann is back. And I will mention, at Oak Ridge, 
there is also a focus on 3D printing, basically.
    Secondly, a second one is wideband gap semiconductors. That 
is mainly for power electronics, which is--again, it is an 
enabling technology. It cuts across many energy sectors and 
other sectors.
    The third that is now open for competition is on the whole 
subject of composite materials for lightness and strength. And 
I might add the Department of Defense has two others. One is on 
lightweight steels, metals, and the other on digital 
manufacturing.
    So you can see the pattern is--these are not, you know, 
kind of pigeonhole things. They are key core capabilities that 
can go across our manufacturing sector and, hopefully, gain us 
advantage
    Ms. Kaptur. And for the sake of the public, either yourself 
or your director of science, could you state for the public 
which technologies, such as nanomaterials--what are your 
priorities? You have about six or seven.
    Secretary Moniz. For specific applications of these 
technologies? Is that what you mean?
    Ms. Kaptur. Well, the sectors, nanomaterials----
    Secretary Moniz. Oh.
    Ms. Kaptur. You have about six or seven major----
    Secretary Moniz. Yes. So the kinds of things that I already 
mentioned in terms of lightweight materials, composite 
materials, the lightweight metals, the manufacturing processes 
like 3D, et cetera.
    So those are the priority areas now, and we will be 
expanding the list in consultation with a bunch of 
stakeholders.
    But then the applications, if I just look at the energy 
space, you know, they range from efficient vehicles to wind 
turbine blades and power electronics, renewables to grid 
management.
    So the applications of this is going to be very broad 
across the energy sector and other parts of our industrial 
sector, because, again, we are focusing on these key 
foundational technologies that will apply to many 
manufacturers.
    Ms. Kaptur. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Secretary.
    Last year the President's budget request called for a 
strategic review of the Tennessee Valley Authority, which, to 
my knowledge and from testimony from the director of OMB in the 
budget committee on which I serve that the review is yet to be 
completed.
    The President's fiscal year 2015 budget request states 
that, ``The administration stands ready to work with Congress 
and TVA stakeholders to explore options to end Federal ties to 
TVA, including alternatives such as the transfer of ownership 
to state or local stakeholders.''
    So considering the very active partnership between TVA and 
NNSA--I am curious--what conversations have taken place between 
OMB and the Department of Energy and NNSA, specifically as it 
relates to tritium production?
    Secretary Moniz. As I understand, frankly, prior to my 
tenure, I believe that those discussions were held in terms of 
making sure that the national security equities would be part 
of any discussion that went forward.
    Mr. Nunnelee. So what are your thoughts on transferring 
tritium production to the private sector or to state or local 
stakeholders?
    Secretary Moniz. Well, we clearly need to continue our 
tritium production and--you know, and I would say, with TVA 
being a government entity, it is probably a little bit simpler. 
But I think, technically, of course, we could do it with a 
commercial reactor as well.
    Mr. Nunnelee. We will be----
    Secretary Moniz. I mean, commercial--it is a commercial 
reactor, but I mean a non-government entity.
    Mr. Nunnelee. Sure. We will be submitting questions as to 
what it would involve to make that transition, should it become 
necessary.
    Secretary Moniz. Okay.
    Mr. Nunnelee. Have I got time for another one, Mr. 
Chairman?
    Mr. Simpson. You bet.
    Mr. Nunnelee. Thank you.
    I do support your work in advanced research concepts. This 
subcommittee last year added $12 million to this program for 
2014 to fund an industry-only competition for advanced reactor 
concepts.
    I know the President's budget has not requested more 
funding for this. I do hope that Congress will be able to 
continue this in 2015 along with our support of the national 
lab efforts. We have to find ways to stimulate industry efforts 
to develop new reactors that will be safe and economically 
competitive.
    Developing generic technologies like DOE did with this very 
small amount of 2013 funding will take a long time for us to 
get to where we need to go of competitively priced electricity.
    But given the larger amount that we gave you in 2014, I 
hope that you will move forward in funding three or four 
reactor concepts that might eventually produce economically 
competitive electricity, not simply generic technologies that 
may end up not working well together.
    So I would appreciate it if you would just look into this 
and get back with us on the subject.
    Secretary Moniz. I will, indeed.
    Mr. Nunnelee. All right.
    Thank you, Mr. Chairman.
    Secretary Moniz. Thank you.
    Mr. Simpson. Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, I would simply want to 
emphasize that I join with Mr. Hobson in his concerns about MOX 
originally. Thank you very much.
    Mr. Simpson. I was going to mention you, but I wasn't 
certain that that is where you were.
    Mr. Visclosky. I appreciate the chairman not taking my name 
in vain. I appreciate that very much.
    Mr. Simpson. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And, Mr. Secretary, I wanted to discuss high-speed 
computing because I think this is so critically important to 
our nation. And, as you know, when you visited ORNL with me, we 
had an opportunity to visit there and discuss that.
    We are competing with the rest of the world in developing 
and maintaining our supercomputing capabilities, sir.
    Can you talk a little bit about the importance of 
computing, both in speed and performance, and how you see the 
U.S. comparing with other countries.
    Secretary Moniz. Yes. Thank you for the question.
    First of all, you can be assured that I am very, very 
committed to maintaining and extending DOE's--I mean, DOE and 
its predecessor agency's really historic role in helping push 
advanced computing for this country.
    It was--when I was in my first go-round at DOE, the program 
was really pushed by our weapons program, which historically 
had been how these supercomputers were advanced over many 
decades.
    At the end--towards the end of the Clinton Administration 
at the department, we started the application of these tools 
more broadly to key science and energy challenges.
    And I have to say, coming back, I am really pleased to see 
how that has burgeoned, really, which reinforces your point 
about how high-performance computing, you know, is--kind of 
goes across so much of what we do, often without even realizing 
it, frankly, including the spread to industry that we all know, 
airline manufacturing, for example, being based on this.
    And I will come to a broader statement. But, also, in fact, 
at Oak Ridge, again, I would mention the very first DOE hub, 
CASL, which is exactly on computer simulation for design of 
next-generation fuels and safety systems, et cetera, for 
nuclear power.
    So I just think that the--this has been a huge edge. It is 
for us. It has been a huge edge also in the national security 
context. And, in fact, having the supply chain for cutting-edge 
competition has been very important for us.
    So you mentioned speed. Well, right now we don't have the 
fastest computer in the world. Right now that is in China.
    And the Chinese, the Japanese, the Europeans--everybody is 
really committing to this so-called Exascale push, which is why 
in this budget we have, I think, a $141 million request 
specifically to move Exascale, with $50 of that in NNSA and $91 
in the Office of Science.
    I do want to emphasize that it is not just about speed. 
That is important. But, frankly, understanding the 
architectures of these bigger and bigger machines, 
understanding how one writes the--let me call it, roughly 
speaking, software for utilizing this--I think, when you put it 
all together, I would say we are in the lead, but we won't stay 
there if we stand still.
    So the road to Exascale--I mean, we see Exascale as, you 
know--maybe, let's say, the end of the decade or a year or two 
after that. But the road in getting there will have many 
discoveries that will, I think, permeate the bigger picture 
about developing and using these kinds of cutting-edge 
capabilities.
    Mr. Fleischmann. Okay. As a follow-up, you mentioned CASL, 
which I think is very important.
    Could you please for the committee tie in how the 
supercomputing allows us and has benefited specifically the 
CASL program, to tie that in. I think it is very clear that 
supercomputing and CASL--it is a prime example of why we need 
this program.
    Secretary Moniz. Yes. So the CASL is the hub at Oak Ridge. 
It has got many partners, both other labs, academic. I might 
mention Idaho is part of that, in fact. Los Alamos as well. 
Universities are part of that.
    Of course, Oak Ridge is one of our premier centers for 
high-performance computing. That is critical to the performance 
of CASL.
    I would like to emphasize that CASL is pretty much at now 
its first 5-year installment. It has gotten very, very good 
reviews.
    And it has provided products as promised that have gone out 
in terms of industry being able to adopt these tools. So I 
think it is a--you know, I think the program has received very, 
very positive reviews.
    Mr. Fleischmann. Mr. Chairman, do I have any more time 
remaining for a quick question?
    Mr. Simpson. Quick one. Yes.
    Mr. Fleischmann. Just to show our competition 
internationally, Mr. Secretary, we have a commitment to 
supercomputing in this country.
    But for the benefit of the subcommittee, where is the rest 
of the world in terms of their commitments?
    Secretary Moniz. Well, as I say, the Chinese, the Japanese 
and the Europeans, in particular, have a major commitment, 
probably in Russia, too, although I don't know as much about 
that, to be honest.
    But I think, in terms of the competition, to understand the 
intensity, what I would say is that, you know, the Chinese in 
their--I forget the exact number--but tens of petaFLOPS 
computer, the world's fastest at the moment, they have a lot of 
American-origin components in there.
    However, it is well known that their plan going forward is 
that the next generation will have completely indigenous 
components. And so that is a change in the game.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I yield back.
    Mr. Simpson. Mr. Fortenberry.
    Mr. Fortenberry. Mr. Secretary, I would like to pull back 
to a higher altitude and ask some more fundamental questions.
    Is there a right to nuclear power?
    Secretary Moniz. The issue----
    Mr. Fortenberry. Because--I think you can anticipate why I 
am asking this, because this has set, basically, the 
architecture in the way in which we deal in treaty obligations 
and in international relations with other countries.
    And, yet, as we know, in certain types of nuclear power, it 
is a quick sprint when the other resource factors are there to 
nuclear weapons capability. And so we have this distinction 
that, again, lays a certain set of working premises, but then 
leads us to the potential for future problems that are very 
grave.
    We have the world on the verge of nuclear weapons 
proliferation. That is the reality. If certain things don't go 
our way, you can see this happen in the Middle East. If other 
countries get shaky in terms of their agreements with us, they 
have advanced economies and scientific capacity to develop this 
quickly.
    So the reason I am asking you this is related back to our 
earlier question regarding the strategic thinking--the robust 
strategic thinking, the interdisciplinary strategic thinking, 
between us and the administration.
    How do we reexamine some of these working premises? And 
then maybe outcomes flow from there--or at this point probably 
what would seem like an impossible policy idea of, like, for 
instance, an international nuclear fuel bank where you can 
actually get ahold of the inventory of nuclear material that is 
in the world and work toward, again, stability in this arena, 
whereas right now we are on the verge of grave instability.
    Secretary Moniz. In terms of your opening statement about 
our right to nuclear power, I think--well, of course, going all 
the way back to President Eisenhower's Atoms For Peace, I mean, 
there was the idea that, of course, we would support and 
welcome the spread of nuclear power with the appropriate 
conditions. And today that largely means, for example, IAEA 
safeguards, et cetera.
    The second point, of course, is that, just to emphasize, as 
you well know, the nuclear power reactor, I would say, is not 
in and of itself their proliferation--the center of the 
proliferation risk as opposed to other fuel cycle activities 
that might surround it, which is why, of course, we have the 
strong focus on the----
    Mr. Fortenberry. Well, that is why I said----
    Secretary Moniz [continuing]. Materials.
    Mr. Fortenberry [continuing]. Certain types of nuclear 
power generation.
    Secretary Moniz. That is right. Yeah.
    So, look, I think the--I think we have effective programs 
with the IAEA. We support the IAEA quite strongly. I might add 
the IAEA--and I was at the first ministerial meeting last 
June--I think it was last June--or--no--well, I don't know. 
Anyway, I think it was last June. They had the first energy 
ministerial meeting on nuclear security.
    So I think this is very, very important, that the IAEA is 
elevating organizationally and in terms of focus security, in 
some sense, to the same level of safety, which has been 
traditionally their focus.
    Mr. Fortenberry. That is a great point. If I could 
interrupt, that is an excellent point.
    And I think it puts us on the trajectory toward trying to 
re-create a policy framework that diminishes the possibility of 
further proliferation.
    That international agency, I think, has an excellent 
director, and it is my hope that they are robustly supported 
not only by us, but around the world.
    Secretary Moniz. Yeah. If I mention that as a factoid, then 
the--as I mentioned, last week was the third of the nuclear 
security summits that President Obama started in 2010. Then it 
went to South Korea, then The Hague.
    2016 that will return to the United States, and later--
probably 6 months later would be the second IAEA energy 
security--nuclear security ministerial, with the idea that that 
may be then an institutionalized way of carrying forward this 
discussion at a high level.
    Mr. Fortenberry. Yeah. That, I agree, is also another very 
important platform. In fact, I was at the first one that the 
President held.
    A group of us from Congress went on the bus over there, and 
we could not figure out the common thread between us. It was 
the most diverse group of members on a single bus I have ever 
seen.
    And, finally, I think, now-Senator Markey mentioned to me, 
``Have you figured out why we are all on this bus?'' I said, 
``I cannot.'' He said, ``It is everyone who voted against the 
U.S.-India civil nuclear trade deal.'' Because we had concerns 
about the nuclear proliferation treaty dynamic.
    Secretary Moniz. I see.
    Mr. Fortenberry. And--but, yes, I think that is another 
platform that is very important, and it is achievable.
    The other ideas that I have suggested are, again, shifts of 
paradigm in thinking, but--and maybe the IAEA is the right 
agency or the place where a broader movement in terms of 
nuclear security--standardization of nuclear security can 
occur.
    But this is the kind of--again, we don't have a lot of time 
here. I mean, project out where we are going to be in 2030 and 
this could go either way.
    Secretary Moniz. Uh-huh.
    Mr. Fortenberry. Yeah.
    Thank you, Mr. Chair.
    Secretary Moniz. Yeah.
    Mr. Simpson. Ms. Kaptur, did you have any further 
questions?
    Ms. Kaptur. Just very quickly. Thank you, Mr. Chairman, 
very much.
    I just wanted to mention to the Secretary that I don't know 
if the department has done any evaluation of the impact of the 
Chinese dumping of solar panels on the global market, I had 
mentioned this in prior years.
    But the intellectual property that exists in many smaller 
companies, certainly in my region, I think is important to the 
country.
    And I would just direct your attention to what has 
happened, the fallout of those actions by the Chinese across 
the globe and certainly within our own country and our own 
innovation platforms that exist. So I wanted to just bring that 
to your attention.
    And then, secondly, I believe that, in regions such as I 
represent, there is a tectonic shift going on in power and the 
production of power and the confluence of the, as I mentioned 
earlier, shutdown of coal-fired utilities, the nuclear industry 
that is--many plants up for relicensing at the same time as new 
natural gas discoveries are coming on board.
    And I don't really know what that means for unregulated 
states versus regulated states, but I would hope that the 
department--if there is a Federal role for us to play for those 
regions that are undergoing significant change, that there 
would be--are we just going to let companies die?
    I guess that is what the capitalistic system is all about, 
but I would just have to say that, for unregulated markets and 
merchant economies, these transitions can be really brutal.
    And so I would ask you, if you can give us any guidance of 
actions we could take to provide smoother transitions, it would 
be very instructive to us.
    So I thank the chairman very much.
    I don't know if the Secretary wishes to comment on either 
the solar issue or the changing nature of power production in 
some of our regions, but I would welcome his comments.
    Secretary Moniz. Well, on the solar issue, I would just 
mention, of course, that our trade representative, Mike Froman, 
who--we have launched two WTO actions on solar from China. So 
those are in process.
    On the second, I would just mention--this is no simple 
issue--we certainly have been--for example, the nuclear 
closures we have been certainly looking at, but, you know--and 
we have had discussions with some of the companies.
    We don't have a lot of authorities in that regard. I think 
a lot of those issues would be at a state level and a state 
regulatory issue.
    And I think one of the issues is to what extent--and it is 
different in different regulatory structures--to what extent is 
fuel diversity, for example, you know, kind of valued in terms 
of how one is moving forward.
    But I would note that, again, one of our major efforts is 
this--I referred to earlier the Quadrennial Energy Review. That 
is a process which--this year. It is administration-wide. DOE 
has a special role with our analytical capacity and this new 
office we created.
    The focus for this year is specifically on energy 
infrastructure, transportation, storage and distribution of 
energy, electricity and fuels. And it is clear that one of the 
focal areas is going to be a set of regional fuel resiliency 
studies.
    That, of course, couples directly into this issue of fuel 
diversity because--for example, in my part of the country, New 
England, it is well known that there is--especially in the 
winter when it got very cold--there is a real mismatch of 
natural gas transport capacity into a region that has become 
very natural gas-heavy in the power sector.
    But, of course, we also had issues with propane certainly 
in the upper Midwest, other parts of the country, too, in fact, 
even in the South, but especially in the upper Midwest where we 
had terrible propane problems, a lot of infrastructure issues. 
There became an enormous differential of price between propane 
at the Kansas and Texas hubs because it was an infrastructure 
bottleneck issue.
    So we are going to be looking at that and looking at it 
also on a regional basis, and I think that can at least provide 
a foundation for the issue you are talking about.
    Ms. Kaptur. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Simpson. Thank you, Mr. Secretary, for being here 
today. We have taken about two and a half hours of your time. 
So I appreciate you sitting there throughout that and answering 
our questions.
    You obviously are in charge of a very important department, 
in my opinion. That is why I was so excited to become chairman 
of this subcommittee, because I think the Department of Energy 
is truly both wide-ranging and important to the economic future 
of this country in a variety of ways that we have talked about 
today. You face many challenges, obviously.
    My job is not only to do the appropriation for the energy 
and water appropriations bill, but it is to help make you the 
most successful secretary of the Department of Energy that we 
have had.
    Secretary Moniz. Thank you.
    Mr. Simpson. When that happens, then we all win.
    Secretary Moniz. We all win. Right.
    Mr. Simpson. So I look forward to working with you over the 
coming months as we put together this budget and try to address 
both the concerns that you have and the concerns that have been 
expressed here by members of this committee and try to address 
the future.
    Secretary Moniz. Good. Thank you, Mr. Chairman.
    Mr. Simpson. Thank you.
    Secretary Moniz. Thank all the members who provided very 
helpful questions today.
    Mr. Simpson. You bet. Thank you. We are adjourned. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
</pre></body></html>
